APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
————
No. 18-7066
————
ROBERT SHI, AS EXECUTORS OF THE WILL OF
YUEH-LAN WANG, et al.,
v.

Appellants,

NEW MIGHTY U.S. TRUST, et al.,
Appellees.
————
Appeal from the United States District Court
for the District of Columbia
(No. 1:10-cv-01743)
————
Argued December 11, 2018
Decided March 15, 2019
————
Daniel S. Weinberger argued the cause and filed the
briefs for appellants.
John L. Gardiner argued the cause for appellees.
With him on the brief were Andrew Muscato and
David B. Leland.
Before: ROGERS, GRIFFITH and PILLARD, Circuit
Judges.
Opinion for the court filed by Circuit Judge ROGERS.

2a
ROGERS, Circuit Judge: This is the second time
this case has come before the court. The first time the
court held that the district court had jurisdiction and
reversed the dismissal of the complaint for lack of
diversity. Wang ex rel. Wong v. New Mighty U.S. Trust,
843 F.3d 487 (D.C. Cir. 2016). The underlying factual
circumstances are summarized there. See id. at 488–
89. Suffice it to say, in 2010, Yueh-Lan Wang, the
widow of Taiwanese plastics magnate and billionaire
Yung-Ching (“Y.C.”) Wang, sued three D.C.-based
entities (hereinafter “the Trusts”) created before her
husband’s death, alleging that the transfer of a large
portion of her husband’s assets to the Trusts unlawfully denied her the full marital estate to which she
was entitled. Suing initially through Dr. Wong to
whom she had granted her power of attorney and upon
her death in 2012 through the executors of her estate,
the widow raised claims under District of Columbia
and Taiwanese law. After seven years of litigation on
whether diversity jurisdiction exists, as well as litigation in Taiwan to appoint executors for her estate, the
Trusts moved to dismiss the complaint on forum non
conveniens grounds. The district court granted the
motion, subject to conditions that the Trusts consent
to process and jurisdiction in Taiwan and also waive
statute of limitations defenses, their necessary or indispensable parties argument, and challenges to the power
of attorney used to file suit. Hsu v. New Mighty U.S.
Trust, 288 F. Supp. 3d 272 (D.D.C. 2018); Hsu v. New
Mighty U.S. Trust, 308 F. Supp. 3d 178 (D.D.C. 2018).
The Executors of the widow’s estate appeal. They do
not contest that Taiwan is an adequate alternative
forum to the extent its judicial system could, with the
Trusts’ consent, assert jurisdiction over them and
afford some type of remedy for the widow’s claims, see
Hsu, 288 F. Supp. 3d at 282–86. Instead, the Executors

3a
contend the district court’s balancing misapplied the
private and public factors and consequently failed to
hold the Trusts to their heavy burden when it dismissed the complaint. For the following reasons, we
conclude we must reverse and remand the case to the
district court.
I.
The Supreme Court has instructed both that a court
may decline to exercise jurisdiction pursuant to the
doctrine of forum non conveniens only “in exceptional
circumstances,” Gulf Oil Corp. v. Gilbert, 330 U.S. 501,
504 (1947), and that “[a] defendant invoking forum
non conveniens ordinarily bears a heavy burden in
opposing the plaintiff’s chosen forum,” Sinochem Int’l
Co. v. Malay. Int’l Shipping Corp., 549 U.S. 422, 430
(2007). In determining whether to dismiss a case on
forum non conveniens grounds, the district court “must
decide (1) whether an adequate alternative forum for
the dispute is available and, if so, (2) whether a balancing of private and public interest factors strongly
favors dismissal.” Agudas Chasidei Chabad of U.S. v.
Russian Federation, 528 F.3d 934, 950 (D.C. Cir.
2008). The court must balance the relevant private
and public interest factors in light of the degree of
deference the plaintiff’s choice of forum deserves. ElFadl v. Cent. Bank of Jordan, 75 F.3d 668, 676–77
(D.C. Cir. 1996), abrogated on other grounds by Samantar
v. Yousuf, 560 U.S. 305 (2010). “[U]nless the balance
is strongly in favor of the defendant, the plaintiff’s
choice of forum should rarely be disturbed.” Gilbert,
330 U.S. at 508.
This court’s review of the dismissal of a complaint
on forum non conveniens grounds is for “clear abuse of
discretion” because that “determination is committed
to the sound discretion of the trial court.” Piper

4a
Aircraft Co. v. Reyno, 454 U.S. 235, 257 (1981). Such
abuse occurs where the trial court “fails to consider a
material factor or clearly errs in evaluating the factors
before it, or does not hold the defendants to their
burden of persuasion.” Simon v. Republic of Hungary,
911 F.3d 1172, 1182 (D.C. Cir. 2018) (quoting El-Fadl,
75 F.3d at 677). This court accepts as true all factual
allegations in the complaint and draws all reasonable
inferences in favor of the nonmoving party. Ctr. for
Law & Educ. v. Dep’t of Educ., 396 F.3d 1152, 1156
(D.C. Cir. 2005).
A.
The Executors contend as a threshold matter that
the district court erred in granting the Trusts’ motion
to dismiss on forum non conveniens grounds because
this ground was not raised until seven years after the
litigation began. The Executors point to decisions in a
number of circuits that have concluded the defendant
must file a motion to dismiss for forum non conveniens
“within a reasonable time after the facts or circumstances which serve as the basis for the motion have
developed and become known or reasonably knowable
to the defendant.” In re Air Crash Disaster Near New
Orleans, La. on July 9, 1982, 821 F.2d 1147, 1165 (5th
Cir. 1987), vacated on other grounds sub nom. Pan Am.
World Airways, Inc. v. Lopez, 490 U.S. 1032 (1989);
accord Rustal Trading US, Inc. v. Makki, 17 F. App’x
331, 338 (6th Cir. 2001); see also SerVaas Inc. v.
Republic of Iraq, 540 F. App’x 38, 41–42 (2d Cir. 2013);
Zelinski v. Columbia 300, Inc., 335 F.3d 633, 643 (7th
Cir. 2003); Lony v. E.I. Du Pont de Nemours & Co., 935
F.2d 604, 614 (3d Cir. 1991); Cable News Network L.P.
v. CNNews.com, 177 F. Supp. 2d 506, 528 (E.D. Va.
2001), aff’d in part and vacated in part on other
grounds, 56 F. App’x 599 (4th Cir. 2003). These courts

5a
have recognized that the longer litigation continues in
a U.S. court and the parties incur expenses before the
defendant moves to dismiss on forum non conveniens
grounds, the less the defendant can legitimately claim
that litigation in a U.S. forum is so inconvenient as to
be oppressive or harassing. See, e.g., Air Crash, 821
F.2d at 1165. In other words, as regards the costs to
the parties and the courts that must be considered
when balancing the private and public interests,
“a defendant’s dilatoriness promotes and allows the
very incurrence of costs and inconvenience the
doctrine is meant to relieve,” id., which weighs against
dismissal. See id. at 1165 & n.30; Zelinski, 335 F.3d at
643.
Here, the facts and circumstances that underlie the
forum non conveniens ground remained virtually
unchanged since the complaint was filed in 2010, yet
the Trusts did not move to dismiss the complaint on
this ground until 2017, after this court reversed the
dismissal for lack of diversity and remanded the case.
In a memorandum of law filed in 2012, the Trusts
stated in a footnote they “reserve[d] their right” to
move to dismiss the complaint on forum non conveniens
grounds, indicating they recognized certain facts and
circumstances existed at the time that could justify
such a motion. Some of the delay is attributable to
litigation on the appointment of executors for the
widow’s estate in Taiwan, and some is attributable to
this court holding her appeal in abeyance pending the
Supreme Court’s decision in Americold Realty Trust v.
ConAgra Foods, Inc., 136 S. Ct. 1012 (2016). Still, the
same law firm and lawyer representing the Trusts in
the D.C. litigation also represented defendants (one of
whom manages the Trusts based in D.C.) in a similar
suit filed by the widow on the same day in the federal
court in New Jersey, see Shu v. Wang, No. 10-5302,

6a
2016 WL 6080199, at *4–5 (D.N.J. Oct. 17, 2016), and
filed a forum non conveniens motion in 2011, just 9
months after the complaint was filed, id. at *5.
Meanwhile, instead of moving to dismiss for forum non
conveniens, the D.C.-based Trusts incurred substantial expenses pursuing other litigation strategies,
including a motion to dismiss for lack of diversity jurisdiction, a petition for a writ of certiorari to the Supreme
Court, and oppositions to the Executors’ motions to
substitute for the widow in this court and the district
court. All the while, the Trusts also challenged the
validity of the widow’s power of attorney under Taiwan
law and sought dismissal for failure to state a claim on
the same Taiwanese law issues that they now claim
are too foreign and difficult for a U.S. court to handle.
The Trusts proceeded, moreover, to obtain declarations from Taiwanese law professors interpreting
Taiwanese law issues.
Although this litigation is still in its early stages
despite its advanced age, it is not at the beginning of
litigation efforts by any standard, and the parties and
the judiciary have incurred substantial costs. Even if
the Trusts did not waive their forum non conveniens
argument by not raising it earlier, an issue we need
not decide for the reasons we explain, their willingness
to undergo litigation for seven years in the U.S. federal
courts before raising it weighs against dismissal of the
widow’s complaint.
B.
The Executors are on firm ground in contending that
the district court erred by failing to give appropriate
weight to the widow’s choice to sue in the District of
Columbia rather than in Taiwan. Although a U.S.
plaintiff’s choice of forum is ordinarily entitled to
significant deference because the court may “assume

7a
that this choice is convenient,” that assumption
“applies with less force” to foreign plaintiffs. Piper, 454
U.S. at 255–56; see also Sinochem, 549 U.S. at 430.
But the conclusion that “a foreign plaintiff’s choice
deserves less deference,” Piper, 454 U.S. at 256, is a
matter of degree. Deference may be appropriate, see,
e.g., Lony, 935 F.2d at 609; Carijano v. Occidental
Petroleum Corp., 643 F.3d 1216, 1227 (9th Cir. 2011),
and certain considerations may make litigation in a
U.S. court the most convenient choice even for foreign
plaintiffs, Hefferan v. Ethicon Endo-Surgery Inc., 828
F.3d 488, 494 (6th Cir. 2016); Norex Petroleum Ltd. v.
Access Indus., Inc., 416 F.3d 146, 154–55 (2d Cir.
2005); Lony v. E.I. Du Pont de Nemours & Co., 886
F.2d 628, 634 (3d Cir. 1989); cf. Iragorri v. United
Techs. Corp., 274 F.3d 65, 72 (2d Cir. 2001). Even if
the plaintiff resides outside of the forum, these courts
have understood the Supreme Court’s reasoning to
“instruct[] that [they] give greater deference to a
plaintiff’s forum choice to the extent that it was
motivated by legitimate reasons, including the plaintiff’s convenience and the ability . . . to obtain
jurisdiction over the defendant, and diminishing deference to a plaintiff’s forum choice to the extent that it
was motivated by tactical advantage.” Iragorri, 274
F.3d at 73; see also Pollux Holding Ltd. v. Chase
Manhattan Bank, 329 F.3d 64, 71 (2d Cir. 2003). To
the extent the Executors contend for the first time,
however, that they were entitled the same deference
due U.S. plaintiffs under the Treaty of Friendship,
Commerce and Navigation between the United States
and Taiwan, this argument is forfeited. United States
v. Layeni, 90 F.3d 514, 522 (D.C. Cir. 1996).
The widow had no choice but to sue the D.C.-based
entities here because they did not appear to be subject
to jurisdiction anywhere other than in the United

8a
States. See Associação Brasileira de Medicina de
Grupo v. Stryker Corp., 891 F.3d 615, 619 (6th Cir.
2018); Tech. Dev. Co. v. Onischenko, 174 F. App’x 117,
122 (3d Cir. 2006); Norex, 416 F.3d at 155–56. The
doctrine of forum non conveniens is premised on the
assumption that there are “at least two forums in
which the defendant is amenable to process,” and
“furnishes criteria for choice between them.” Gilbert,
330 U.S. at 506–07. The district court recognized that
the Trusts “effectively concede that they are not
amenable to process in Taiwan,” Wang ex rel. Wong v.
New Mighty U.S. Trust, 322 F.R.D. 11, 25 (D.D.C.
2017), and a Taiwanese forum became available only
when the Trusts acceded to it as a condition of
dismissal here. Although a district court may dismiss
a complaint on forum non conveniens grounds even
where the plaintiff had no alternative forum available
until the defendants later consented to appear in their
preferred forum, Schertenleib v. Traum, 589 F.2d
1156, 1164 (2d Cir. 1978), the lack of an original
alternative forum constitutes a “legitimate reason” for
a foreign plaintiff’s choice of a U.S. forum. Stryker, 891
F.3d at 619; Norex, 416 F.3d at 155–56. Furthermore,
the Trusts were sued in their home jurisdiction, which
weighs heavily against dismissal. Schertenleib, 589
F.2d at 1164; see also Galustian v. Peter, 591 F.3d 724,
732 (4th Cir. 2010); Reid-Walen v. Hansen, 933 F.2d
1390, 1395 (8th Cir. 1991). The district court clearly
failed to adequately address these circumstances in
determining the amount of deference to accord the
widow’s choice of forum.
C.
The Executors further persuasively contend the
district court clearly erred in finding that the private
interest factors even “slightly” favor dismissal. The

9a
considerations governing the private interest analysis
include “the relative ease of access to sources of proof;
availability of compulsory process for attendance of
unwilling, and the cost of obtaining attendance of
willing, witnesses; possibility of view of premises, if
view would be appropriate to the action; and all other
practical problems that make trial of a case easy, expeditious and inexpensive[, such as] enforc[ea]bility of a
judgment if one is obtained [and] relative advantages
and obstacles to fair trial.” Gilbert, 330 U.S. at 508. A
plaintiff “may not, by choice of an inconvenient forum,
‘vex,’ ‘harass,’ or ‘oppress’ the defendant by inflicting
upon him expense or trouble not necessary to his own
right to pursue his remedy.” Id. Dismissal in favor of
suit elsewhere “will ordinarily be appropriate where
trial in the plaintiff’s chosen forum imposes a heavy
burden on the defendant or the court, and where the
plaintiff is unable to offer any specific reasons of
convenience supporting his choice,” such as where a
plaintiff chooses a particular forum “solely in order to
harass the defendant or take advantage of favorable
law.” Piper, 454 U.S. at 249 & n.15.
The district court concluded that the language barrier
was a “substantial obstacle” to access to relevant
evidence in the District of Columbia. Hsu, 288 F. Supp.
3d at 288. To the extent translation is considered a
significant obstacle in this day and age, that obstacle
will exist regardless of where this case is tried.
See Simon, 911 F.3d at 1186; de Csepel v. Republic of
Hungary, 714 F.3d 591, 605 (D.C. Cir. 2013). The
district court focused on the need to interpret a Tax
Settlement Agreement cited in the Trusts’ motions to
dismiss for failure to state a claim, regarding whether
the other two women who bore Y.C. children were also
his wives. See Hsu, 288 F. Supp. 3d at 288. But in
evaluating the convenience to each party, “the court

10a
should focus on the precise issues that are likely to be
actually tried, taking into consideration the convenience of the parties and the availability of witnesses
and the evidence needed for the trial of these issues.”
Iragorri, 274 F.3d at 74. The widow’s claims focus on
whether Y.C. owned the assets that were transferred
to the Trusts and whether Y.C. formed the Trusts to
reduce the widow’s share of the Marital Estate. The
documents related to these claims are likely to be in
English because the relevant transactions were between
entities formed in English-speaking countries, and the
witnesses who could provide information about these
transactions, such as the lawyers and tax advisors who
created the Trusts and officers of the U.S. subsidiaries
whose stock holdings were transferred, speak English.
Whether another “wife” has claims to any assets
that may be added to the Marital Estate as a result of
the widow’s lawsuit may be an issue in this litigation
down the line, but the widow’s claims do not center
chiefly on Taiwanese-language documents. By placing
“undue emphasis” on an issue that is “of secondary
importance,” the district court distorted the forum non
conveniens analysis. R. Maganlal & Co. v. M.G.
Chemical Co., 942 F.2d 164, 165, 168 (2d Cir. 1991).
The district court also concluded that the issue of
the availability of witnesses and evidence “hangs in
equipoise.” Hsu, 288 F. Supp. 3d at 290. Logistical
hurdles to obtaining evidence and voluntary testimony
in the United States present less of a problem than
they used to in light of technological advances and
the ease of international travel. See Simon, 911 F.3d
at 1186; Maggie Gardner, Retiring Forum Non
Conveniens, 92 N.Y.U. L. Rev. 390, 409 (2017). The
record indicates the widow may face more difficulty
compelling witness testimony in Taiwan than the
Trusts will in the United States. The Trusts do not

11a
suggest they will be unlikely to persuade their
proposed witnesses located abroad — the “Trust
Managers” and other of Y.C.’s companies’ employees —
to appear voluntarily in a U.S. court, weighing against
dismissal. See Lehman v. Humphrey Cayman, Ltd.,
713 F.2d 339, 342–43 (8th Cir. 1983). In contrast, some
of the widow’s proposed witnesses are less likely to
testify voluntarily. U.S. witnesses are subject to subpoena
by U.S. courts, and those courts can reach foreign
non-party witnesses through the Hague Evidence
Convention1 and letters rogatory. See Société Nationale
Industrielle Aérospatiale v. U.S. Dist. Ct. for S. Dist. of
Iowa, 482 U.S. 522, 540–41 (1987); Fed. R. Civ. P.
28(b). Taiwanese courts do not appear to have such
reliable mechanisms of compulsory process. See
generally Manu Int’l, S.A. v. Avon Prods., Inc., 641
F.2d 62, 67 (2d Cir. 1981); Expert Decl. of Prof. TsungFu Chen, ¶ 75 (Nov. 16, 2017); Reply Expert Decl. of
Prof. Tsung-Fu Chen, ¶¶ 150–52 (May 31, 2017).
The district court failed to address the enforceability
of judgments in its private interest analysis at all,
despite acknowledging that it must balance this issue.
Hsu, 288 F. Supp. 3d at 285–86. The enforcement of
judgments presents a hurdle to trial in Taiwan given
that the funds at issue are not located in Taiwan. If
the widow obtains a judgment against the Trusts in
Taiwan, then another lawsuit would have to be filed in
the United States to enforce the Taiwanese judgment.
See Nemariam v. Federal Democratic Republic of
Ethiopia, 315 F.3d 390, 395 (D.C. Cir. 2003).

1

See Convention of 18 March 1970 on the Taking of Evidence
Abroad in Civil or Commercial Matters, List of Contracting
Parties, https://www.hcch.net/en/instruments/conventions/statustable/?cid=82 (last visited Feb. 19, 2019).

12a
Despite the Supreme Court’s instruction that the
defendant must make a strong showing that a foreign
forum is more convenient, Piper, 454 U.S. at 249, the
district court recognized significant hurdles to access
to evidence and availability of witnesses in Taiwan but
concluded that in the aggregate this factor “weighs
slightly in favor of dismissal.” Hsu, 288 F. Supp. 3d at
289. This conclusion does not follow from the district
court’s analysis that the parties will confront serious
hurdles in either forum. The district court clearly
failed to hold the Trusts to their “heavy burden” to
show that a foreign forum is significantly more
convenient than a U.S. forum, Sinochem, 549 U.S. at
430, that is their home jurisdiction.
D.
The Executors’ challenges to the district court’s
weighing of the public interest factors, see Hsu, 288 F.
Supp. 3d at 293, are also persuasive. The considerations governing the public interest analysis include
the “[a]dministrative difficulties” when “litigation is
piled up in congested centers,” the “burden” of jury
duty on “a community which has no relation to the
litigation,” the “local interest in having localized controversies decided at home,” and the “appropriateness”
of trying a diversity case “in a forum that is at home
with the state law that must govern the case, rather
than having a court in some other forum untangle
problems in conflict of laws, and in law foreign to
itself.” Gilbert, 330 U.S. at 508–09.
The district court viewed the District of Columbia’s
interest in the widow’s claims as “weak,” concluding
the “strong Taiwanese interests” “tip[] sharply in favor
of dismissal.” Hsu, 288 F. Supp. 3d at 291. The District
of Columbia’s interest in this litigation is not weak,
though. Y.C. Wang and his associates are alleged to

13a
have reached into the District of Columbia to establish
the Trusts, transferring assets to the Trusts and
thereby availing themselves of the benefits of District
of Columbia law on trusts. As in DiRienzo v. Philip
Services Corp., 294 F.3d 21, 32 (2d Cir. 2002), the
widow’s lawsuit exists only because Y.C. Wang and his
associates utilized U.S. legal structures to devise their
alleged tax and estate avoidance scheme, Second Am.
Compl. ¶¶ 46–58. See Expert Decl. of Prof. Tsung-Fu
Chen, ¶ 76 (Nov. 16, 2017). The Trusts can hardly
complain now that they are burdened by being sued in
their home jurisdiction when Y.C. Wang specifically
bestowed upon the District of Columbia an interest in
this case by establishing the Trusts here. A “defendant’s home forum always has a strong interest in
providing a forum for redress of injuries caused by its
citizens.” Reid-Walen, 933 F.2d at 1400. Although
Taiwan and its citizens may have an interest in the
division of the estate of one of their wealthiest citizens,
Y.C. allegedly transferred significant assets into the
United States in order to hide them and avoid legal
responsibilities, Second Am. Compl. ¶¶ 37–45. In this
circumstance, Taiwan’s interest does not clearly
outweigh the District of Columbia’s interest in this
dispute. See DiRienzo, 294 F.3d at 31–32.
The district court concluded that a jury composed of
residents of the District of Columbia should not be
burdened with this case. Hsu, 288 F. Supp. 3d at 293.
There are obviously significant contacts with the
District of Columbia given the Trusts’ operations here.
“Any economic burden to the forum is justified because
the defendant has undertaken both the benefits and
burdens of citizenship and of the forum’s laws.” ReidWalen, 933 F.2d at 1400. This impact on a jury of D.C.
residents would not justify dismissing a case against

14a
D.C.-based entities on forum non conveniens grounds.
See id.
The district court further concluded this litigation
would require it to apply Taiwanese family and inheritance law, which “weighs strongly in favor of dismissal.”
Hsu, 288 F. Supp. 3d at 292. But the need to apply
foreign law alone is “not sufficient to warrant dismissal when a balancing of all relevant factors shows that
the plaintiff’s chosen forum is appropriate.” Piper, 454
U.S. at 260 n.29. The widow alleges claims under
District of Columbia and Taiwanese law, and U.S.
courts regularly apply foreign law when conflict of
laws principles demand it. See Manu Int’l, 641 F.2d at
67–68; Mobil Tankers Co. v. Mene Grande Oil Co., 363
F.2d 611, 615 (3d Cir. 1966). The ultimate importance
of interpreting Taiwanese law regarding division of
the Marital Estate among multiple putative “wives” is
unclear because the widow’s lawsuit centers on the
size of the estate to be divided, not how it is to be
divided. As discussed, the district court therefore
placed undue emphasis on whether Pao Chu Lee was
legally a wife of Y.C. Wang, a question that is at most
only of secondary importance to the widow’s case.
The district court clearly erred in overemphasizing
the public interest factors, particularly the need to
answer difficult questions of Taiwanese law that may
have no or minimal bearing on the widow’s suit. And
in view of Y.C. Wang’s decision to establish the Trusts
in the District of Columbia and take advantage of both
the benefits and burdens under District of Columbia
law, even a complex trial in the widow’s chosen forum
and the Trusts’ home jurisdiction does not impose
unjustified burdens or administrative difficulties on
the district court.

15a
Accordingly, we must reverse and remand the case
to the district court for further proceedings. The district
court’s errors, considered together, constitute a clear
abuse of discretion. The district court failed to give
appropriate weight to the widow’s legitimate choice of
forum and erred in concluding that the private
interest factors weighed slightly in favor of dismissal
and in overemphasizing the public interest factors in
deciding to dismiss this case on forum non conveniens
grounds. The doctrine of forum non conveniens is to
be applied only in rare cases, and only where the
defendant meets a heavy burden of showing that
suit in the United States is so inconvenient as to be
harassing, vexing, or oppressive. No such showing has
been made here.

16a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
[Filed: April 23, 2019]
————
No. 18-7066
1:10-cv-01743-JEB
————
ROBERT SHI, AS EXECUTORS OF THE WILL OF
YUEH-LAN WANG, et al.,
Appellants,
v.
NEW MIGHTY U.S. TRUST, et al.,
Appellees.
————
September Term, 2018
————
BEFORE: Garland, Chief Judge; Henderson,
Rogers, Tatel, Griffith, Srinivasan,
Millett, Pillard, Wilkins, Katsas, and
Rao, Circuit Judges
————
ORDER
Upon consideration of appellees’ petition for rehearing en banc, and the absence of a request by any
member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam

17a
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Ken R. Meadows
Deputy Clerk

18a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
————
Civil Action No. 10-1743 (JEB)
————
CHIN-TEN HSU, et al., AS EXECUTORS OF THE WILL OF
YUEH-LAN WANG,
Plaintiffs,
v.
NEW MIGHTY U.S. TRUST, et al.,
Defendants.
————
MEMORANDUM OPINION
Having watched this case wend its way through
many twists and turns, the Court must now determine
whether it in fact belongs across the Pacific. Bringing
a Motion to Dismiss for forum non conveniens,
Defendants contend that Taiwan, not the District of
Columbia, is the appropriate jurisdiction in which to
resolve this dispute over the estate of plastics magnate
Yung-Ching (Y.C.) Wang. At the time of his death in
2008, Y.C. was worth an estimated $6.8 billion –
making him, according to Forbes, the 178th wealthiest
individual in the world. Although he amassed quite a
fortune, he lacked one crucial asset: a last will and
testament. In the years since his passing, the distribution of Y.C.’s estate has thus become a significant
source of contention among his many putative heirs.
These claimants, to further complicate matters, belong
to three separate “families” derived from Y.C.’s
relationships with different women.

19a
Nearly eight years ago, Winston Wen-Young Wong,
Y.C.’s son from his Second Family, kicked off this
modern-day Jarndyce v. Jarndyce when he filed suit
on behalf of the First Family, which consists solely of
Yueh-Lan Wang, the woman to whom Y.C. had been
married since 1935. Winston, whom Yueh-Lan named
as her lone heir, alleged that her marital share of Y.C.’s
estate had been “shorted” by unlawful transfers of
funds prior to Y.C.’s death. Asserting that Defendants –
a D.C.-based trust and its affiliates – held a portion of
these assets, Winston sought to reclaim Yueh-Lan’s
full disbursement from Y.C.’s estate. After a series of
intervening events – including Yueh-Lan’s death and
the subsequent appointment of Executor-Plaintiffs in
Taiwan – and procedural detours, the case returned to
this Court’s docket last year. This past August, the
Court allowed Plaintiffs to file a Second Amended
Complaint, and today it turns to Defendants’ Motion
to Dismiss that Complaint. Finding that Taiwan is an
adequate alternative forum and that the relevant
interests weigh strongly in favor of dismissal, the
Court will grant their Motion under the doctrine of
forum non conveniens. It will, however, condition that
grant upon Defendants’ waiver of statue-of-limitations
defenses and potential additional constraints.
I. Background
A. Factual and Procedural History
As the lengthy and colorful history of this case is set
forth in full in the Court’s prior Opinions, it need not
repeat the complete narrative here. See Yueh-Lan
Wang ex rel. Wong v. New Mighty U.S. Tr. (Wang I),
841 F. Supp. 2d 198, 200 (D.D.C. 2012), rev’d sub nom.
Wang by & through Wong v. New Mighty U.S. Tr.
(Wang Appellate Decision), 843 F.3d 487 (D.C. Cir.
2016); Yueh-Lan Wang by & through Winston Wen-

20a
Young Wong v. New Mighty U.S. Tr. (Wang II), 322
F.R.D. 11, 15 (D.D.C. 2017). The Court also frequently
refers to participants by their first name to avoid
confusion and not out of any disrespect.
To recap briefly: this dispute centers on the disbursement of the estate of Y.C. Wang. When Y.C. died
in 2008, his plastics empire made him the secondwealthiest individual in Taiwan. See Second Am.
Compl, ¶ 18. Yet he had no will – an unfortunate
oversight given that he left behind nine children and
three putative wives. This suit is brought on behalf of
the estate of the first of those partners, Yueh-Lan.
Married to Y.C. for 72 years, Yueh-Lan witnessed her
husband’s meteoric rise, including his founding of
Formosa Plastic Group, which is “one of Taiwan’s
biggest and most profitable manufacturing conglomerates with annual sales of over $60 billion and
operations in five countries.” Id., ¶ 17. She, as the
“First Family,” also witnessed his fathering children
with two other women – Wang Yang Chiao and Pao
Chu (P.C.) Lee. Id., ¶¶ 25-26. While Y.C. and YuehLan had no offspring, his relationship with Wang
Yang Chiao resulted in the birth of five children
known as the “Second Family,” and P.C. Lee produced
another four known as the “Third Family.” Id., ¶ 26.
As any reader of Bleak House could have been
predicted, the matter of Y.C.’s estate and its disbursement has led to some discord among his three families
and their various children. Related suits have been
brought in Taiwan, Bermuda, New Jersey, Hong
Kong, and, of course, before this Court. See ECF 38-4
(discussing Taiwan action); SAC, ¶ 64 (discussing
Bermuda action); Shu v. Wang (DNJ Action), 2016 WL
6080199, at *1 (D.N.J. Oct. 17, 2016); ECF 49-21, ¶ 60
(discussing Hong Kong Action). This case was first

21a
filed on October 14, 2010, by Dr. Winston Wen-Young
Wong (Winston), a member of the Second Family and
Y.C.’s eldest son, who asserted that he was acting
through a valid power-of-attorney in bringing the suit
on Yueh-Lan’s behalf. See ECF No. 1 (Complaint).
Although Winston is a Second Family member, YuehLan named him as her sole heir, and he thus has a
significant interest in the restoration of any assets to
her estate. See SAC, ¶ 14. Defendants are a trust
formed under the laws of the District of Columbia –
New Mighty U.S. Trust – as well as its trustee,
Clearbridge, LLC, and a beneficiary of the trust, New
Mighty Foundation. See SAC, ¶¶ 19-21. Both the
Foundation and Clearbridge, it should be noted, are
linked to children of the Third Family. See Wang II,
322 F.R.D. at 16.
Yueh-Lan’s claims sought the return of property
transferred by Y.C. to Defendants during the five
years prior to his death, on the ground that Taiwanese
and D.C. law would allegedly entitle her to recover
these assets as part of her 50% spousal share. Wang I,
841 F. Supp. 2d at 200. Although Yueh-Lan received a
portion of Y.C.’s $1.7 billion “Taiwan Assets” after his
death, she asserted that this sum “represent[ed] only
a fraction of Y.C.’s” holdings, and that the full Marital
Assets were in fact “greater than double the value of
[that] property.” SAC, ¶¶ 5, 34-36; see ECF No. 47-2
(Decl. of Andrew Muscato), ¶ 20 (asserting that YuehLan received “hundreds of millions of dollars” from
Y.C.’s Taiwan Assets).
Defendants initially moved to dismiss these claims
on a variety of grounds, and this Court granted that
entreaty after finding a lack of diversity jurisdiction.
Wang I, 841 F. Supp. 2d at 208; see Wang Appellate
Decision, 843 F.3d at 488. Plaintiff appealed this

22a
ruling, but Yueh-Lan died shortly thereafter. Although
she had named Winston as her sole heir, she had failed
to appoint an executor. See Wang Appellate Decision,
843 F.3d at 489; SAC, ¶ 14. The D.C. Circuit thus held
the case in abeyance while the Taiwanese courts
determined who should act in that role. Eventually,
Chen-Teh Shu, Dong-Xung Dai, and Robert Shi were
chosen by the courts, and the three men moved to
substitute themselves as Yueh-Lan’s personal representatives under the appropriate Federal Rule of
Appellate Procedure while the case was still pending
at the D.C. Circuit. Id. at 489. Before ruling on that
motion, though, the D.C. Circuit again stayed the case
after the Supreme Court granted certiorari in Americold
Realty Trust v. ConAgra Foods, Inc., 136 S. Ct. 1012
(2016), which addressed the appropriate citizenship
test for a real-estate trust – a question germane to the
existence of diversity jurisdiction in this case. Wang
Appellate Decision, 843 F.3d at 489 n.6.
Based on the decision in Americold, the D.C. Circuit
eventually reversed this Court’s dismissal of YuehLan’s Complaint. The Circuit, at the same time, also
granted the Executors’ substitution motion “without
prejudice to the defendants’ ability to renew in district
court those arguments they ha[d] pressed before.” Id.
at 496. Returning to this Court, Plaintiff Executors
filed a Motion for Leave to File a Second Amended
Complaint and for Other Relief. See Wang II, 322
F.R.D. at 30; ECF No. 37. Finding that Defendants’
various futility, joinder, and bad-faith arguments fell
short, and that many should be reserved for later
briefing, the Court concluded that “no barriers exist[ed]
to the filing of Plaintiff Executors’ Second Amended
Complaint” and granted the motion in full. Wang II,
322 F.R.D. at 32.

23a
B. Second Amended Complaint
The operative Second Amended Complaint alleges
five counts under the Civil Code of Taiwan: (1) Yueh-Lan
has not received the full value of the 50% share she is
entitled to under Article 1030-1; (2) to the extent her
claim cannot be satisfied from property held by Y.C. at
his death, Plaintiffs are entitled to restitution from
third parties pursuant to Article 1030-3; (3) Yueh-Lan
is entitled to restitution from Defendants for infringing upon her right of inheritance pursuant to Article
1146; (4) Plaintiffs are entitled to the return of assets,
monies, and property distributed or transferred to
Defendants from the marital estate pursuant to Article
767; and (5) Defendants unjustly benefited from the
improper acquisition of Y.C.’s assets and are bound to
return them under Article 179. See SAC, ¶¶ 66-101.
Plaintiffs also bring four counts under D.C. common
law: (1) unlawful conversion of Yueh-Lan’s rightful
marital property; (2) unjust enrichment from the
improper acquisition and use of such property; (3) an
action for a constructive trust to be imposed to ensure
that Plaintiffs receive Yueh-Lan’s statutory share of
Y.C.’s estate; and (4) an action for an accounting of all
the assets, monies, and property owned by Y.C. prior
to his death. See id., ¶¶ 102-120.
Defendants have now filed a Motion to Dismiss the
Second Amended Complaint, alleging both that it fails
to state a claim under Fed. R. Civ. 12(b)(6) and that it
should be discretionarily dismissed under the doctrine
of forum non conveniens. See ECF 47 (Mot. to Dismiss
SAC). Briefing on this Motion is now complete, and the
Court must decide whether this suit will remain on its
docket.

24a
II. Standard of Review
Because the Court ultimately grants Defendants’
Motion to Dismiss pursuant to forum non conveniens,
it need not address their Motion under Rule 12(b)(6).
It therefore presents the standard for only the former
below.
Whether to dismiss a case under forum non conveniens
is a “discretionary decision that can be made at any
time.” Stromberg v. Marriott Int’l, Inc., 474 F. Supp.
2d 57, 60 (D.D.C. 2007), aff’d, 256 F. App’x 359 (D.C.
Cir. 2007). Dismissal under the doctrine is a “nonmerits threshold inquiry,” which “reflects a court’s
assessment of a range of considerations, most notably
the ‘convenience to the parties and the practical difficulties that can attend the adjudication of a dispute
in a certain locality.’” MBI Grp., Inc. v. Credit Foncier
du Cameroun, 558 F. Supp. 2d 21, 26-27 (D.D.C. 2008)
(quoting Sinochem Int’l Co. Ltd. v. Malaysia Int’l
Shipping Corp., 549 U.S. 422 (2007)).
Applying forum non conveniens is a two-fold inquiry.
First, the Court asks whether an adequate alternative
forum exists. If so, it next looks to a set of public and
private factors to determine if they favor dismissal. “If
the balance favors the foreign forum, and if the Court
is convinced that plaintiff effectively can bring its case
in the alternative forum, the Court may dismiss the
case on grounds of forum non conveniens.” KPMG
Fin. Advisory Servs. Ltd. v. Diligence LLC, 2006
WL 335768, at *1 (D.D.C. Feb. 14, 2006) (citing Pain
v. United Techs. Corp., 637 F.2d 775, 785-86 (D.C. Cir.
1980)). In asserting the doctrine, “the defendant has
the burden on all aspects of a motion to dismiss on
forum non conveniens grounds, including the obligation to establish as a prerequisite that an adequate
alternative forum exists.” Id.

25a
III. Analysis
Before turning to the two-step inquiry, the Court
begins with a preliminary dispute over the application
of forum non conveniens to this case – i.e., the timing
of Defendants’ Motion. Finding that this issue does not
preempt a full analysis under FNC, the Court then
proceeds to separately assess the adequacy of the
alternative forum, and the private and public interests
at stake.
A. Timing
As Plaintiffs acknowledge, motions to dismiss pursuant to forum non conveniens are not subject to any
jurisdictional time bar or procedural waiver. See Opp.
at 21. Yet they nonetheless assert that Defendants’
Motion in this case should be rejected as untimely,
citing to a series of cases holding that FNC motions
must be brought within a “reasonable” time. Id. at
21-22. According to the Executors, this period has
elapsed. Pointing out that this case has been pending
since October 2010, Plaintiffs contend that Defendants
had a number of opportunities to raise FNC earlier,
but instead engaged in a “long-term, deliberate choice
to not move for dismissal on FNC grounds.” Id. at 22.
Plaintiffs assert that “no new facts have emerged”
over the long life of this lawsuit that “might justify
Defendants’ recent shift” in asking for FNC dismissal.
Id. at 25. Their “eleventh-hour decision to file an
FNC motion,” the Executors maintain, thus “has the
appearance of improper forum shopping and gamesmanship.” Id. Finally, they state that “it would be
highly inefficient for the parties and the courts, as well
as prejudicial to Plaintiffs, to dismiss the case at this
stage.” Id. at 26.

26a
The Court begins its analysis by noting that,
although some courts have held that a defendant must
bring an FNC motion within a “reasonable” period of
time, the D.C. Circuit is not among them. See, e.g.,
Stromberg, 474 F. Supp. 2d at 60 (decision “to dismiss
a case under the forum non conveniens doctrine . . . can
be made at any time”); L & L Const. Assocs., Inc. v.
Slattery Skanska, Inc., 2006 WL 1102814, at *3
(D.D.C. Mar. 31, 2006) (court retains flexibility to
make FNC dismissal decision “at any time”). In the
absence of governing Circuit precedent, this Court
declines to impose any such timeliness requirement.
Yet, even if it were to consider the “reasonableness” of
Defendants’ timing, Plaintiffs would nonetheless not
prevail. Although they are correct that this suit has
been pending for eight years, this longevity is due
not to any dilatory tactics or “gamesmanship” by
Defendants, but instead is the result of the case’s
circuitous procedural history.
As discussed above, the Court granted Defendants’
first Motion to Dismiss for lack of subject-matter
jurisdiction in 2012. After Plaintiffs appealed, the
Court of Appeals suspended briefing and held the
case in abeyance in order to resolve the executorship
proceedings after Yueh-Lan’s death, a process that
took three years. See Wang II, 322 F.R.D. at 16-17.
Restarting the appeal in the fall of 2015, Plaintiffs
filed their motion for substitution, and Defendants
requested dismissal on the ground that the suit was a
“legal nullity.” Id. at 18. Yet the briefing on these
claims was again suspended, pending the Supreme
Court’s decision in Americold, which finally issued in
spring 2016. On December 9 of that year, the D.C.
Circuit ruled in Plaintiffs’ favor and remanded the
case to this Court. Plaintiffs then moved to amend
their Complaint in March 2017, and Defendants

27a
opposed on a number of grounds – including FNC. In
August, the Court granted the Motion to Amend and
denied FNC dismissal at that time, but permitted
Defendants to reassert the defense in later briefing.
The Executors filed their Amended Complaint in
August 2017, and Defendants responded with the
instant Motion to Dismiss, briefing on which was
complete in late December. As this recounting demonstrates, the fact that 2018 has now arrived without
even the filing of an Answer is hardly the result of
Defendants’ strategic choice.
Defendants admittedly could have sought an FNC
dismissal in their initial Motion to Dismiss, but they
instead asserted a lack of diversity jurisdiction. This
was certainly proper. While “forum non conveniens
may justify dismissal of an action though jurisdictional issues remain unresolved,” the doctrine may
also be raised after such threshold questions have been
addressed. Sinochem, 549 U.S. at 429, 424 (finding
that FNC dismissal may precede jurisdictional inquiry,
but noting contexts in which court might “first determine its own authority to adjudicate the case”).
Although Plaintiffs suggest that Defendants were
under some sort of obligation to raise FNC when YuehLan appealed from this Court’s ruling in Wang I, this
position makes little sense in light of fundamental
rules and practices of appellate procedure. This Court’s
first Opinion addressed a discrete issue of law –
whether or not Yueh-Lan had established subjectmatter jurisdiction in the District. Wang I, 841 F.
Supp. 2d at 200. Concluding that the citizenship of a
trust required consideration of the citizenship of the
trust’s beneficiaries, this Court found that Plaintiff
had not adequately demonstrated diversity and
dismissed the First Amended Complaint on that
ground. It was that decision that was appealed, and,

28a
given the intervening decision in Americold, overruled. See Wang Appellate Decision, 843 F. 3d at 49496. Plaintiffs’ contention that Defendants should have
tacked on a novel FNC submission during the course
of this proceeding ignores the narrow scope of the issue
on appeal and the fact that appellate courts generally
do not “consider an issue not passed upon below,”
particularly when it involves a discretionary, factintensive analysis such as forum non conveniens. See
Kingman Park Civic Ass’n v. Williams, 348 F.3d 1033,
1039 (D.C. Cir. 2003). In sum, Plaintiffs’ suggestion
that Defendants should be deemed to have forfeited
their FNC defense by not raising it in prior stages
of this suit – or that their decision to now mount such
a defense evinces any gamesmanship or improper
motive – holds no water.
Similarly unavailing is Plaintiffs’ more pragmatic
assertion that it would be “highly inefficient” to
dismiss the case at this stage. It is true that where
“litigation has progressed significantly,” efficiency
concerns may weigh against a belated assertion of
FNC. See Wright & Miller, Federal Practice &
Procedure § 3828 (4th ed. 2017). Yet the Executors are
off the mark when they state that “[t]his case is
analogous to decisions denying an FNC motion after
discovery” or other substantial stages in litigation. See
Opp. at 27. While this case is now approaching the
eight-year mark, it has not progressed beyond a
Motion to Dismiss; there has been no answer, no discovery, no motions for summary judgment, and, of
course, no trial date set. Cf. Zelinski v. Columbia 300,
Inc., 335 F.3d 633, 642-43 (7th Cir. 2003) (holding that
district court did not abuse discretion in denying
forum non conveniens motion that was not made until
one month before scheduled trial); Lony v. E.I. Du Pont
de Nemours & Co., 935 F.2d 604, 614 (3d Cir. 1991)

29a
(holding that when “discovery in a case has proceeded
substantially so that the parties already have invested
much of the time and resources they will expend before
trial” presumption against FNC increases); Jimmerson
v. Kaiser Found. Health Plan of Mid-Atl. States, Inc.,
663 A.2d 540, 545 (D.C. 1995) (finding that “belated
dismissal” on FNC grounds would waste litigants’ and
court’s efforts when “[d]iscovery was complete, a detailed
joint pre-trial statement filed, the pretrial conference
completed, and a trial date selected”). At bottom, this
suit may be aged in years, but it is still young at heart.
Although the Court recognizes that Plaintiffs have put
in substantial hours and effort on this matter, see Opp.
at 26, 45, such a commitment of resources does not
justify denying Defendants’ Motion as untimely or
unduly prejudicial.
B. FNC Analysis
Having resolved this preliminary issue, the Court
may now focus on the substance of Defendants’
attempt to dismiss this case pursuant to forum non
conveniens. Under the doctrine, “[a] court first determines whether there is an adequate alternative forum
and, if so, then proceeds to balance both private
interest factors and public interest factors in favor of
the respective forums.” Jackson v. American Univ.,
Cairo, 52 Fed. App’x. 518, 518 (D.C. Cir. 2002) (citing
Piper, 454 U.S. at 241). If the Court concludes that the
alternative forum is sufficient, and either the privateinterest factors or the public-interest factors evince a
“strong tilt” towards that forum, dismissal may be
appropriate. MBI Grp., 558 F. Supp. 2d at 26–27. At
bottom, however, FNC is a fact-based and flexible
analysis, and one that is committed to the discretion
of the district court. As the Supreme Court has opined,
“[I]f central emphasis were placed on any one factor,

30a
the forum non conveniens doctrine would lose much of
the very flexibility that makes it so valuable.” Piper,
454 U.S. at 249-50; see also Van Cauwenberghe v.
Biard, 486 U.S. 517, 529 (1988) (“[T]he district court
is accorded substantial flexibility in evaluating a
forum non conveniens motion, and each case turns on
its facts.”) (internal citations and quotation marks
omitted). So long as an adequate alternative forum is
available and the district court has found that the
public or private interests favor dismissal, it may
dismiss an action “when it appears that there is an
imposition upon its jurisdiction.” Cruise Connections
Charter Mgmt. 1, LP v. Attorney Gen. of Canada, 764
F. Supp. 2d 155, 160 (D.D.C. 2011) (citation omitted).
1. Adequate Alternative Forum
The Court thus begins by asking whether Taiwan is
an adequate alternative forum to hear this action.
See El-Fadl v. Cent. Bank of Jordan, 75 F.3d 668,
677 (D.C. Cir. 1996), abrogated on other grounds by
Samantar v. Yousuf, 560 U.S. 305 (2010) (“Availability
of adequate alternative fora is a threshold test . . . in
the sense that a forum non conveniens motion cannot
be granted unless the test is fulfilled.”) (quotation
marks and citation omitted). “In determining the
suitability of an alternative forum, the Court must
determine whether an alternative forum is available
(i.e., whether defendants are amenable to process or
otherwise within the forum’s jurisdiction) and whether
the forum is adequate (i.e., whether the parties will be
deprived of all remedies or treated unfairly).” Irwin,
448 F. Supp. 2d at 33 (citing Piper, 454 U.S. at 254)
(emphasis added).

31a
a. Availability
In its prior Opinion, this Court concluded that
“Defendants have not carried their burden to prove
that an alternative forum is actually, not just theoretically, available.” Wang II, 322 F.R.D. at 25-26. At
that time, Defendants had submitted affidavits establishing that they would, in fact, “consent to process in
Taiwan.” Id. The Court found, however, that they had
not “adequately respond[ed]” to Plaintiffs’ contention
that the statute of limitations had run on the underlying claims. Id. Noting that Defendants did not “fully
waiv[e] their right to a limitations defense in Taiwan,”
the Court held that “[t]his alone dooms their forum
non conveniens argument for now.” Id. Yet the Court
left the FNC door ajar, stating, “If Defendants will
waive, they can renew their request for an FNC
dismissal in a future motion that fully articulates such
a position.” Id.
Defendants took up that charge. They have now
returned with waivers in hand and have fully disavowed raising any statute-of-limitations defenses if
this case is dismissed and re-filed in Taiwan. See ECF
Nos. 47-9 (Decl. of Susan Wang), 47-10 (Decl. of
William Wen-Yuan Wong), 47-11 (Decl. of Donald
D. Kozusko). Defendants’ expert on Taiwanese law,
Professor Yeong-Chin Su, has stated that Taiwan
courts will enforce these agreements, a conclusion
that Plaintiffs do not dispute. See ECF Nos. 47-6 (Decl.
of Yeong-Chin Su IV), ¶¶ 6-7; 42-25 (Su Decl. III),
¶¶ 5-7. In light of these affidavits, the Court is
satisfied that Taiwan is available to Plaintiffs as an
alternative forum. See Moletech Glob. Hong Kong Ltd.
v. Pojery Trading Co., 2009 WL 3151147, at *4 (N.D.
Cal. Sept. 25, 2009) (finding defendants’ agreement to
“waive any Taiwanese statute of limitations” was

32a
“sufficient to establish that Taiwan is an adequate
alternative forum”); see also Stromberg v. Marriott
Int’l, Inc., 256 Fed. App’x. 359, 360 (D.C. Cir. 2007)
(holding district court did not abuse its discretion in
finding Mexico an adequate forum because “[a]ppellees
agreed to accept service in Mexico and waived any
statute-of-limitations defenses”); In re Disaster, 540 F.
Supp. at 1145 (finding that alternative forums can be
“created by the defendants’ consent”). To the extent
that Plaintiffs assert that the Court should “consider”
Defendants’ “shift” in position regarding their willingness to waive statute-of-limitations claims, see Opp. at
28, this argument can be easily disregarded. As noted
above, the Court’s prior Opinion explicitly invited
Defendants to waive such defenses and then to “renew
their request for an FNC dismissal.” Wang II, 322
F.R.D. at 26. It would be Janus-faced to now punish
them for doing so.
Finally, to the extent that concerns remain regarding Plaintiffs’ ability to re-file in Taiwan, the Court
will give them the opportunity to request that additional reasonable conditions be imposed on dismissal.
b. Adequacy
Having now established that the courthouse door in
Taiwan is open to Plaintiffs, the Court must next
resolve whether that forum provides an adequate
alternative for their claims. Although the “adequacy
qualification” under FNC “allows the court some room
to make discretionary judgments as to the viability” of
alternative forums, the Supreme Court has stated that
only in “rare circumstances” should such inadequacy
be found. See In re Disaster, 540 F. Supp. at 1145
(citing Piper, 454 U.S. at 254 n.22). A forum fails the
adequacy prong only “where the remedy offered by the
alternative forum is clearly unsatisfactory” such that

33a
“there is . . . danger that [Plaintiffs] will be deprived of
any remedy or treated unfairly.” Piper, 454 U.S. at 254
n.22. The Executors argue that this case presents that
rare instance for a number of reasons.
i. Defendants’ Waiver
They initially focus on the scope of Defendants’
waivers. Plaintiffs assert that Taiwan is an inadequate forum because, although Defendants consented
to service of process and waived statute of limitations,
they “have not waived a myriad of other issues decided
in Plaintiffs’ favor.” Opp. at 28. This argument falls
well short of demonstrating inadequacy. Although the
Executors may be correct that Defendants will “seek
to relitigate” certain questions if this case is re-filed
abroad, this is no barrier to dismissal under FNC. Id.
The fact that issues already determined here may be
back on the table in Taiwan does not reflect any fatal
shortcoming of the alternative forum, but instead only
a shift in governing law. See El-Fadl, 75 F.3d at 678
(“A foreign forum is not inadequate merely because
it has less favorable substantive law [or] because it
employs different adjudicative procedures.”) (internal
citation omitted); Borden, Inc. v. Meiji Milk Prods. Co.,
919 F.2d 822, 829 (2d Cir. 1990) (stating that “unavailability of beneficial litigation procedures similar to
those available in the federal district courts does not
render an alternative forum inadequate”). Dismissal
under FNC may put Plaintiffs in the unenviable
position of having to re-hash a few questions already
addressed by this Court, and Taiwan’s law may (or
may not) be less favorable to their claims, but the
specter of relitigation does not render a foreign forum
an inadequate alternative.

34a
ii. Corruption
Plaintiffs next concentrate their fire on their “bona
fide concern that a Taiwan court would decide this
case upon extrajudicial considerations.” Opp. at 28.
They “believe they will never obtain a fair trial against
these Defendants in Taiwan,” id. at 30, a conviction
based on the “substantial power” wielded by members
of the “Third Family” and their allegedly close affiliation with Taiwan government officials. Id. at 29.
According to Plaintiffs, these ties have the potential to
influence the Taiwan judiciary. In support of this fear,
they point to a State Department Report noting that
“some political commentators and academics publicly
question[] the impartiality of judges and prosecutors
involved in high-profile and politically sensitive cases.”
ECF No. 42-24 (2016 Human Rights Report) at 4.
The Court does not deny that Y.C. and his progeny
may have myriad connections to the economy and elite
spheres of Taiwan. See ECF 49-21 (Christian Luthi
Aff.), ¶¶ 11, 22 (stating that Susan Wang, Y.C.’s
daughter, is a senior executives a FPG, which generates over 13% of Taiwan’s GDP); ECF 49-1 (Daniel
Weinberger Decl. III), ¶ 22 (Susan Wang member of
business delegation to U.S. headed by former Taiwan
Vice President). Yet Plaintiffs have provided no
evidence that the Third Family’s influence would lead
to judicial corruption in this case. See Warter v. Boston
Sec., S.A., 380 F. Supp. 2d 1299, 1311 (S.D. Fla. 2004)
(“Only evidence of actual corruption in a particular
case will warrant a finding that an alternate forum is
inadequate.”) (emphasis omitted). The record thus
does not support their assertion that its “power,” even
if substantial, renders Taiwan an inadequate alternative forum. See El-Fadl, 75 F.3d at 678 (foreign forum
not inadequate “because of general allegations of

35a
corruption in the judicial system”); Eastman Kodak
Co. v. Kavlin, 978 F. Supp. 1078, 1084 (S.D. Fla. 1997)
(noting that argument that “[t]he ‘alternative forum is
too corrupt to be adequate’ . . . does not enjoy a particularly impressive track record”) (collecting cases). Indeed,
Taiwan has repeatedly been held to be an adequate
forum by federal courts. See, e.g., Moletech, 2009 WL
3151147, at *4; In re Air Crash Over Taiwan Straits
on May 25, 2002, 331 F. Supp. 2d 1176, 1181-88 (C.D.
Cal. 2004); Lee Yu-Ge v. Johnson & Johnson, 2011 WL
3566859, at *2 (N.D. Ohio Aug. 12, 2011) (noting that
“a number of other courts have deemed Taiwan to be
an adequate alternate forum”).
Plaintiffs also cannot rely on the State Department
Report as objective support for their corruption concerns. A closer examination of that document reveals
that while “some political commentators and academics”
may have speculated as to the partiality of the
judiciary, the Report also states that Taiwan has “an
independent and impartial” civil system. See State
Dep’t Rep. at 5. Especially in light of this conclusion,
the vague concerns mentioned in the Report are not
sufficient to show that Taiwan is an inadequate forum.
See El-Fadl, 75 F.3d at 678 (finding reliance on State
Department Report expressing “concern about the
impartiality” of Jordanian court system insufficient to
demonstrate forum’s inadequacy). In sum, the evidence does not support the conclusion that Taiwan’s
legal system is “so fraught with corruption . . . and
bias as to provide ‘no remedy at all.’” Tuazon v. R.J.
Reynolds Tobacco Co., 433 F.3d 1163, 1179 (9th Cir.
2006). The Court therefore finds unavailing Plaintiffs’
position that they would be denied a fair trial because
of Defendants’ alleged influence over Taiwanese courts.

36a
iii. Evidentiary concerns
Plaintiffs next assail the shortcomings of Taiwan’s
power to compel the production of evidence and order
discovery. According to them, “[B]ecause of Taiwan’s
lack of international status,” its courts have “no power
to compel the production of evidence from any nonparty witnesses outside Taiwan.” Opp. at 29. Their
legal expert asserts that this suit, if re-filed, will
therefore be “cut off at [its] inception . . . because the
Taiwan courts are not cloaked with the sovereign
authority of a fully recognized independent nation.”
ECF No. 39-1 (Chen Decl. II), ¶ 152. Plaintiffs dispute
that discovery under 28 U.S.C. § 1782(a), which
provides that a “district court of the district in which
a person resides or is found may order him to give his
testimony or statement or to produce a document or
other thing for use in a proceeding in a foreign . . .
tribunal,” would provide any “meaningful solution to
these concerns,” as Defendants are likely to “vigorously oppose[]” any such requests. See Opp. at 30.
Defendants reply that Taiwan’s lack of international
status is irrelevant to the FNC analysis, and that
discovery under § 1782 is “unquestionably available,”
even if “properly objected to.” Reply at 16. They note,
moreover, that Plaintiffs would also have letters
rogatory at their disposal – a method by which they
could obtain evidence and testimony from abroad. Id.
The Court agrees with Defendants that Taiwan is
not rendered an inadequate forum because of Plaintiffs’
evidentiary concerns. As it addresses in greater depth
below, the use of either forum may place certain witnesses and evidence beyond the reach of compulsory
discovery. Yet “a foreign forum’s restrictive discovery
or procedural rules do not render that forum inadequate.” Marra v. Papandreou, 59 F. Supp. 2d 65, 73

37a
(D.D.C. 1999); see In re Air Crash, 331 F. Supp. 2d at
1187 (finding that plaintiffs’ arguments “regarding the
availability of . . . pretrial discovery . . . do not warrant
a finding that Taiwan’s procedural safeguards are
inadequate for forum non conveniens purposes”). If
compelled to re-file in Taiwan, moreover, Plaintiffs
will still be able to request discovery through § 1782,
which provides for the production of evidence located
in the United States “upon the application of any
interested person.” 28 U.S.C. § 1782(a) (evidence may
be produced “pursuant to a letter rogatory issued[] or
request made” by foreign tribunal or interested party).
The availability of such discovery further assures the
Court that Taiwan is a viable alternative forum. See
Strategic Value Master Fund, Ltd. v. Cargill Fin.
Servs., Corp., 421 F. Supp. 2d 741, 769 (S.D.N.Y. 2006)
(“When evaluating a motion for dismissal pursuant to
forum non conveniens . . . the availability of letters
rogatory is relevant to a court’s analysis.”).
iv. Remedies
Last, the Executors contend that Taiwan courts will
be unable to order an adequate remedy even if they
succeed. They argue that because Taiwan “do[es] not
recognize claims in equity or provide equitable remedies” and because they “will be unable to enforce any
judgment obtained against Defendants,” that country
is an inadequate alternative forum to hear this suit.
See Opp. at 30. Defendants rejoin that the potential for
Plaintiffs to obtain less-favorable remedies in the
alternative forum “does not render Taiwan inadequate.” Reply at 17.
On this point, the precedent again supports Defendants’ position. The Supreme Court has established
that only when “the remedy provided by the alternative forum is so clearly inadequate or unsatisfactory

38a
that it is no remedy at all,” can the district court
conclude that “dismissal would not be in the interests
of justice.” Piper, 454 U.S. at 254. That bar was not
met, the Court held, when plaintiffs were unable to
rely on a particular legal theory in the alternative
forum, or when their potential damages award would
be limited. Id. at 254-55. Here, too, the evidence does
not show that Plaintiffs will be deprived of any
“remedy at all.” As discussed below, their claims
revolve around alleged violations of Taiwan’s Civil
Code. They do not suggest that the Code provides no
remedy for their suit, but instead that “equitable
remedies” will not be available. The Court can hardly
deem meaningless the remedies Taiwan has chosen to
provide for such infractions in its own courts. See
Huertas v. Kingdom of Spain, 2006 WL 785302, at *2
(D.D.C. Mar. 27, 2006) (“[A] remedy will not be
considered inadequate merely because the plaintiff’s
potential award will be smaller.”); In Re Disaster, 540
F. Supp. at 1145-46 (potentially smaller damage
award and inability to rely on particular theory of
liability do not render forum inadequate). Indeed,
when a New Jersey district court dismissed Plaintiffs’
nearly identical claims on FNC grounds, it reached the
same conclusion on this issue. As the court there held,
“It would be illogical, to say the least, to believe that a
Taiwanese court is unable to provide an adequate
remedy for a violation of its own laws.” DNJ Action,
2016 WL 6080199, at *8.
Plaintiffs’ argument that Taiwan is inadequate
because they may be unable to enforce a judgment in
U.S. courts is similarly unavailing. Enforceability of a
foreign judgment is not a necessary condition for FNC
dismissal; it is instead one of the factors that may be
considered in the balancing of the private interests at
stake. See Gulf Oil Corp v. Gilbert, 330 U.S. 501, 508

39a
(1947). Whether or not the Executors could enforce a
favorable Taiwanese judgment thus does not determine the threshold question of the forum’s adequacy
to address the dispute at hand. See Windt, 544 F.
Supp. 2d at 418 (foreign forum inadequate when it
“completely prohibit[s] any meaningful litigation of
the subject matter disputed”) (quotation marks omitted).
The one case cited by Plaintiffs in support of their
argument, Nemariam v. Fed. Democratic Republic of
Ethiopia, 315 F.3d 390 (D.C. Cir. 2003), is not to the
contrary. Nemariam did not address the enforcement of remedies, but instead involved circumstances
in which the plaintiff had no personal right to any
remedy in the alternative forum. Id. at 395. Plaintiffs’
alleged inability to enforce a favorable judgment therefore does not establish that Taiwan is an inadequate
alternative forum.
Although the facts of this case may be unusual, its
legal underpinnings do not present the “rare circumstance” in which an alternative forum is not a viable
option. The Court, consequently, finds that Taiwan is
an available and adequate forum for this suit and that
Defendants thus clear the first hurdle to obtaining
FNC dismissal.
2. Balancing of Interests
Next up is a determination of whether the private
and public interests at stake tip “strongly” in favor of
dismissal. See Lans v. Adduci Mastriani & Schaumberg
L.L.P., 786 F. Supp. 2d 240, 293 (D.D.C. 2011). Before
proceeding to those enumerated interests, however,
the Court addresses one initial matter – the appropriate level of deference due to Plaintiffs’ choice of forum.
See Windt v. Qwest Commc’ns Int’l, Inc., 544 F. Supp.
2d 409, 416 (D.N.J.), aff’d, 529 F.3d 183 (3d Cir. 2008)
(noting that courts “conduct their balancing in light of

40a
the degree of deference the plaintiff’s choice of forum
deserves”).
a. Deference
There is ordinarily a strong presumption in favor of
a plaintiff’s chosen forum, but such deference “applies
with less force” when the plaintiff is foreign. Sinochem,
549 U.S. at 430 (quoting Piper, 454 U.S. at 255-54). As
the Supreme Court has explained,
[W]hen the home forum has been chosen, it is
reasonable to assume this choice is convenient. When the plaintiff is foreign, however,
this assumption is much less reasonable.
Because the central purpose of any forum
non conveniens inquiry is to ensure that the
trial is convenient, a foreign plaintiff’s choice
deserves less deference.
Piper, 454 U.S. at 255-56.
Here, Plaintiffs, who are all citizens of Taiwan,
acknowledge that they have filed suit outside their
home forum. Yet they nonetheless assert that their
selection of D.C. should be “granted a high degree of
deference” because it was “made for legitimate reasons
and evinces genuine convenience.” Opp. at 31. In
support, the Executors point to the fact that all named
Defendants are located in the District and that there
are “bona fide connections” between the controversy
and the forum. Id. at 32 (alteration omitted). Relying
on their allegations that Defendants created the D.C.based trusts for the purpose of receiving and holding
over $2 billion of Y.C.’s estate in violation of YuehLan’s spousal rights, and that Defendants “continue to
hold billions of dollars” in the District, Plaintiffs assert
that this forum has a “substantial relation to the
action.” Id. at 32-33. Finally, they contend that they

41a
“never had a choice to sue in any other forum,” as
Defendants were not amenable to process in Taiwan.
Id. at 32. The fact that Defendants have now consented to such foreign jurisdiction “does nothing,”
Plaintiffs argue, “to alter the fact that the forum
choice” was based on “genuine jurisdictional convenience.” Id.
Defendants counter that the Executors’ forum
choice should not, in fact, be accorded a “high degree
of deference.” Noting that the “genuine convenience”
test for evaluating that choice has not been adopted by
this Circuit, Defendants contend that lesser deference
is due. See Reply at 13-14. And, with respect to
Plaintiffs’ assertion that the suit has a “substantial
relation” to the forum, Defendants respond that the
underlying claims “predominantly concern[] Taiwan
law and Taiwan policy issues.” Id. at 14.
The Court agrees that Plaintiffs’ choice of forum
should, in this case, be given less deference than is
normally due when considering dismissal under forum
non conveniens. As an initial matter, it notes that this
Circuit has not yet addressed the relevance of whether
a foreign defendant’s forum choice was motivated by
“legitimate reasons” or “genuine convenience.” Plaintiffs
instead import these considerations from a line of
Second Circuit cases. See, e.g., Iragorri v. United
Techs. Corp., 274 F.3d 65, 73 (2d Cir. 2001) (holding
that foreign plaintiff’s forum choice given “greater
deference . . . to the extent that it was motivated by
legitimate reasons, including the plaintiff’s convenience”); Norex Petroleum Ltd. v. Access Indus., Inc.,
416 F.3d 146, 157 (2d Cir. 2005) (granting “substantial
deference” to foreign plaintiff’s forum choice when
informed by “genuine convenience”) (internal quotation marks omitted); In re Herald, 540 F. App’x 19, 26-

42a
27 (2d Cir. 2013) (affirming “very limited deference”
given to foreign plaintiffs’ choice not motivated by
“genuine convenience”). So, too, with Plaintiffs’ reliance
on the suit’s alleged “bona fide” connections with
the District. See, e.g., Pollux Holding Ltd. v. Chase
Manhattan Bank, 329 F.3d 64, 71 (2d Cir. 2003) (level
of deference given to foreign plaintiff’s choice of forum
“depends on the bona fide connection the plaintiff has
with that forum”); Iragorri, 274 F.3d at 71–72
(deference given to foreign plaintiff’s choice depends,
in part, on degree of “plaintiff’s or the lawsuit’s bona
fide connection . . . to the forum of choice”).
By contrast, this Circuit has not relied on any such
considerations when determining the level of deference given to a foreign plaintiff’s forum choice. Instead,
it has approvingly cited the standard established by
the Supreme Court – namely, that a foreign plaintiff’s
choice of forum is entitled to “less deference.” Friends
for All Children, Inc. v. Lockheed Aircraft Corp., 717
F.2d 602, 605 n.5 (D.C. Cir. 1983) (internal quotation
marks omitted); see also Pac. Mar. Ass’n v. NLRB, 905
F. Supp. 2d 55, 60–61 (D.D.C. 2012) (“[T]he plaintiff’s
choice of forum is afforded great deference . . . [but]
that choice is conferred less deference by the court
when a plaintiff’s choice of forum is not the plaintiff’s
home forum.”); Irwin v. World Wildlife Fund, Inc., 448
F. Supp. 2d 29, 33 (D.D.C. 2006) (“Although there is a
strong presumption in favor of the plaintiff’s choice of
forum, plaintiff’s choice is entitled to less deference if
she is a citizen and resident of a foreign state.”); In re
Disaster, 540 F. Supp. at 1144 (“presumption in favor
of the initial forum choice applies with less than
maximum force when the real parties in interest are
foreign”).

43a
Following this guidance, the Court will not grant
Plaintiffs in this case the benefit of any “strong
presumption” in favor of their forum choice. Instead,
their selection carries “less weight” as the Court
proceeds in its analysis under forum non conveniens.
b. Private Interests
The private interests include (1) the “relative ease of
access to sources of proof”; (2) the “availability of
compulsory process for attendance of unwilling, and
the cost of obtaining attendance of willing, witnesses”;
and (3) the catch-all consideration of “all other
practical problems that make trial of a case easy,
expeditious and inexpensive.” Gulf Oil Corp, 330 U.S.
at 508. The Court focuses its analysis on the first two
considerations, as those are the ones most discussed
and disputed by the parties.
i. Access to Proof
At the outset, an obvious and substantial obstacle
impedes access to relevant evidence in the District of
Columbia – the language barrier. This case involves
complex questions of Taiwanese law, the resolution of
which depends at least in part on the interpretation of
various Chinese-language documents and the testimony of non-English-speaking witnesses. See Mot. at
44-45 (listing documents already in record that have
required translation); Opp. at 40. Indeed, even at this
stage in litigation, the parties dispute the English
meaning of certain pieces of evidence, including a 2010
Taiwanese Tax Settlement Agreement regarding the
distribution of Y.C.’s estate. See ECF Nos. 37-2, 38-5
(differing translations). According to Defendants, this
Agreement states that Yueh-Lan Wang, Yang ChiaoWang, and P.C. Lee were “in fact the spouses of Mr.
Y.C. Wang.” ECF No. 42-25 (Su Sur-Reply Decl.), ¶ 14.

44a
According to Plaintiffs, the correct translation of the
Agreement is that the three women only “emotionally,”
“sentimentally, or “with their emotions” recognized
that they were Y.C.’s wives, not that they were legally
so. See ECF Nos. 18-2 (Decl. of Tsung-Fu Chen I), ¶ 53;
39-1 (Chen Decl. II), ¶ 77; 37-1, Exh. J (Decl. of Xin
Min Liu). Lacking any familiarity with Mandarin, this
Court has no ability to determine which version should
prevail. And that is precisely the point: a U.S. court is
an inconvenient forum for a case in which substantial
decisions may rise or fall on the interpretation of a
given Chinese phrase. See MBI Grp., Inc. v. Credit
Foncier Du Cameroun, 616 F.3d 568, 576 (D.C. Cir.
2010) (upholding dismissal under FNC when “district
court concluded that the private interests clearly
favored a Cameroonian forum” in part due to the
“complexity of the French-to-English translation
necessary for taking evidence and testimony”); Irwin,
448 F. Supp. 2d at 35 (necessity of translating documents and testimony from French to English created
“administrative difficulties of trying the case in the
District of Columbia” that “weigh in favor of dismissal”). Concerned that this case could become lost in
translation, the Court concludes that this issue weighs
in favor of dismissal.
Although neither side disputes the language difficulties (nor could they in good faith, given the extant
record), they sharply diverge as to which forum would
provide greater access to critical witnesses, documents, and other evidence. According to Plaintiffs,
much of this information is located “in the U.S., or
outside of Taiwan.” Opp. at 34. Specifically, they
assert that evidence regarding the “purpose, formation, and functioning” of New Mighty Trust, the
“transfer of Marital Assets to Defendants,” and Y.C.’s
“ownership interests in the assets” are all located in

45a
the United States. Id. at 34-36 (describing individuals
and documents here). The Executors have submitted a
declaration listing eighteen witnesses and entities
that, upon information and belief, are located in the
United States and “are likely to possess documents
and information relevant to the claims and facts
alleged in the [Second Amended Complaint].” ECF
No. 49-1 (Decl. of Daniel Weinberger), ¶ 4. Although
certain of these enumerated witnesses would seem
more crucial than others, see id., (listing legal assistant “who notarized documents relating to this
matter” and “close personal friend” of Y.C.), the Court
has no reason to doubt that at least some of them
possess relevant information.
Defendants also have a list. Indeed, they contend
that “the real parties in interest are principally located
in Taiwan” and go on to describe the many witnesses
who reside in that country. See Mot. at 35-37. These
individuals include the four NM-US trust managers,
the persons who “direct” the operations of NMF, the
Executor-Defendants themselves, Y.C.’s alleged spouse
P.C. Lee, the children of his alleged spouse Yang
Chiao, and those involved in negotiating the Tax
Settlement Agreement. Id. at 36-39. As with Plaintiffs,
however, Defendants also include certain individuals
whose connections to the instant suit seem, at this
stage, somewhat tenuous. See Mot. at 40 (listing
Yueh-Lan’s housekeeper and medical professionals);
42 (listing general director of FPG Museum and “other
museum staff”). Regardless, the Court does not doubt
that “witnesses with knowledge of [relevant] matters
are located in Taiwan.” Mot. at 42.
Just as the parties dispute the geographic distribution of the relevant proof, they also diverge as to the
ease of access to such evidence. Plaintiffs assert that

46a
Defendants have failed to demonstrate that they will
be deprived of necessary evidence if the case is not
dismissed. See Opp. at 40. Noting that Defendants will
be able to use letters rogatory to obtain evidence
located in Taiwan and that they have “essentially
limitless resources,” Plaintiffs contend that Defendants will face no great burden in obtaining proof from
abroad. Id.; ECF No. 49-35 (Chen Opp. Decl.), ¶¶ 7274 (discussing procedures for obtaining evidence in
Taiwan pursuant to letters rogatory); Sayles v. Pac.
Engineers & Constructors, Ltd., 2009 WL 791332, at
*4 (W.D.N.Y. Mar. 23, 2009) (discussing particulars
and requirements of letters rogatory under Taiwanese
law). Defendants rejoin that they are, in fact, likely to
face evidentiary obstacles if this case remains in D.C.
They assert that letters rogatory are not a sufficient
substitute for trying this case in Taiwan, and that they
will therefore be deprived of necessary sources of
proof. See Reply at 16 (citing Chang v. Baxter
Healthcare Corp., 599 F.3d 728, 735 (7th Cir. 2010),
for statement that letters rogatory are not a
“very satisfactory means of obtaining evidence from
Taiwan”).
At this point in the litigation, the precise evidentiary contours of this case remain somewhat murky.
What is clear is that whether this suit is brought in
D.C. or Taiwan, a certain amount of relevant proof is
likely to be located outside the forum. On balance,
however, it appears that Defendants have a somewhat
stronger argument regarding the location of relevant
sources of proof and individuals critical to this action,
as is perhaps unsurprising given that the central
figures in this case are Taiwanese. The Court therefore concludes that this issue weighs slightly in favor
of dismissal.

47a
ii. Obtaining Witnesses
As with the question of where the relevant witnesses
are located, the parties split as to which forum would
be better able to compel and procure testimony from
these individuals. According to Plaintiffs, “[T]o the
extent there are relevant Taiwan witnesses,” they
consist almost entirely of “employees, agents, and
affiliates” of Defendants, thus “obviating any concern
that [it] will be difficult to procure” access to them in
the United States. See Opp. at 39. Plaintiffs contend,
moreover, that evidence from any “remaining unwilling witnesses” can be obtained by this Court through
letters rogatory or unspecified “other powers.” Id. at
40. By contrast, they assert (albeit while incorrectly
suggesting that this Court would transfer, rather
than dismiss, this case under FNC) that “none of the
non-Taiwan witnesses will be subject to compulsory
process if the case is transferred to Taiwan.” Id.
Defendants respond that, if the case is not dismissed, they will face significant challenges in compelling
evidence for use in trial. Taiwan, as they note, is not a
party to the Convention on the Taking of Evidence
Abroad in Civil or Commercial Matters, and there is
no ability to compel witnesses in Taiwan to appear inperson in U.S. courts. See Mot. at 42; Chang v. Baxter
Healthcare Corp., 599 F.3d 728, 735 (7th Cir. 2010)
(finding that “Taiwanese law makes it difficult to
gather evidence for use in a trial in a foreign country
because Taiwan is not a party to the Convention”); see
also Warter v. Boston Sec., S.A., 380 F. Supp. 2d 1299,
1312 (S.D. Fla. 2004) (noting that if case proceeded in
U.S., defendants’ only means of compelling testimony
and evidence would be “foreign letters rogatory
process,” while if filed in Argentina, “Plaintiffs could
use the Argentine rules of procedure . . . [and] could

48a
compel testimony and documents from unwilling U.S.
witnesses pursuant to [§ 1782]”) . Defendants also
dispute that they have meaningful control over the
“numerous Taiwanese witnesses” such that it would
not be difficult to procure their testimony for trial. See
Mot. at 42. Finally, Defendants note that “many” of
their potential witnesses are elderly, and thus the
inconvenience of their travel to the United States
would be “significant and substantial, if not impossible.” Id. at 43; see DNJ Action, 2016 WL 6080199, at
*10 n.22 (finding that “P.C. is currently 81 years old,
resides in Taiwan, and does not speak English” and
that Plaintiffs “essentially concede[] that Taiwan is a
more convenient forum for P.C.”).
On this factor, as with the location of sources of
proof, the Court finds that both sides present viable
arguments in favor of their preferred forum. Whether
this case proceeds in D.C. or in Taiwan, there will be
legal and logistical hurdles to compelling witnesses
and obtaining testimony. See DNJ Action at *14
(finding that “whether the matter is litigated in
Taiwan or in New Jersey,” either forum will be “unable
to compel documents or witnesses who may be
relevant to many issues in this case”). The Court thus
concludes that this factor hangs in equipoise.
On the whole, therefore, the private interests tilt
somewhat toward dismissal.
b. Public Interests
The considerations governing the public-interest
analysis, conversely, include (1) the “local interest in
having localized controversies decided at home”; (2)
the interest in having the trial in a forum that is “at
home” with the law that must govern the action; (3)
the avoidance of unnecessary problems in conflicts of

49a
laws or in the application of foreign law; and (4) the
unfairness of burdening citizens in the current forum
with jury duty. See Gulf Oil Corp, 330 U.S. at 508-09.
Assessing each of these factors, the Court concludes
that the public interest in this case tips sharply in
favor of dismissal.
i. Local Interest
Plaintiffs contend that “the citizens of D.C. and the
U.S. have a strong interest in this litigation.” Opp. at
42. They maintain that “substantial culpable conduct
occurred” in the District, “including the receipt of
property and the establishment of the New Mighty
U.S. Trust structure itself.” Id. at 41. Pointing to the
fact that Defendants are incorporated and located
in this country, they argue that “Defendants and
their affiliates have benefited substantially from U.S.
laws” and thus “cannot now complain of the burden . . .
[that] results from this Court’s jurisdiction.” Id. at 43.
Defendants rejoin that this emphasis on local and U.S.
interests is but a smokescreen for the real dispute
underlying this case – the correct interpretation of
Taiwan’s Civil Code regarding marriage and inheritance. They posit that there “is little to no local
interest in the claims asserted,” and that the “resolution of this Taiwan-law based action is unlikely to have
any impact in the District of Columbia.” Mot. at 32.
Defendants have the better position. The central
question here is whether Yueh-Lan, a lifelong resident
and citizen of Taiwan, was denied certain spousal
rights under Taiwanese inheritance law. Indeed, each
count in the Second Amended Complaint is in some
way premised on her claimed entitlement to her full
share of Y.C.’s marital estate. See SAC, ¶¶ 71-118.
Whichever way this case comes out in the end, its legal
impact will be far greater in Taiwan than in the

50a
District of Columbia – a forum that would very rarely
confront issues of Taiwanese marital law. Although
the District may have a weak interest in this dispute
given Defendants’ local incorporation and business operations, the central claims plainly implicate Taiwanese
concerns. See DNJ Action, 2016 WL 6080199, at *13
(noting that “citizens of Taiwan likely have a strong
interest in the distribution of the estate of one of its
wealthiest citizens”). Indeed, resolving this case would
implicate questions of that country’s social policies
and family law – hardly the “local interests” of a
federal court located an ocean away. See, e.g, ECF Nos.
49-35 (Chen Opp. Decl.), ¶¶ 78-81 (discussing history
of bigamy in Taiwan); 39-1 (Chen Decl. II), ¶¶ 52-55,
72-73 (discussing definition of marriage in Taiwan);
42-25 (Su Sur-Reply Decl.) (discussing determination
of relative spousal contributions to a marriage). Just
as federal courts may decline to decide diversityjurisdiction cases involving domestic relations, the
subject matter at issue here is particularly ill-suited
for determination in the current forum. See, e.g.
Ellison v. Sadur, 700 F. Supp. 54, 55 (D.D.C. 1988)
(“Federal courts generally will not accept jurisdiction
over a case that involves the resolution of a marital
dispute[.]”). In light of these concerns and the strong
Taiwanese interests at stake, this factor tips sharply
in favor of dismissal.
ii. Applying Foreign Law
The Court next considers “the interest in having the
trial in a forum that is at home with the law that must
govern the action” and the potential for “unnecessary
problems in conflicts of laws or in the application of
foreign law.” On this issue, Plaintiffs contend that
“while some issues of Taiwan law exist in this case,
D.C. law will also apply.” Opp. at 44. Yet their attempt

51a
to equate the relevance of Taiwanese and D.C. law is
belied by their Second Amended Complaint. That
pleading alleges five substantive counts under different sections of Taiwan’s Civil Code (as compared to
four common-law counts), see SAC, ¶¶ 66-101, and the
D.C. claims are, at least in part, contingent upon these
foreign-law allegations. Without engaging in a full
conflicts analysis, it appears that the merits of
Plaintiffs’ D.C.-law claims likely depend upon the
viability of their arguments under Taiwan’s Civil
Code. See id., ¶¶ 102-110 (counts for conversion and
unjust enrichment under D.C. law require, respectively, “unlawful” control over another’s personal
property and “unjust” retention of benefit by defendant); cf. Piper, 454 U.S. at 251 (stating that “the public
interest factors point towards dismissal where the
court would be required to untangle problems in
conflict of laws, and in law foreign to itself”) (internal
quotation marks and citations omitted); Lans, 786 F.
Supp. 2d at 300 (finding that “[w]hile the Court need
not definitively resolve the choice of law issue at this
point, the likelihood that foreign law will apply weighs
against retention of the action”) (internal quotation
marks and citation omitted). Plaintiffs’ contention
that this case involves only “some issues” of Taiwanese
law is thus somewhat disingenuous. Instead, the
Court agrees with Defendants that at the core of this
suit lie claims under Taiwanese law.
The Court notes, moreover, that Plaintiffs brought
many of the same Taiwanese and common-law claims
in their New Jersey suit. See DNJ Action, 2016 WL
6080199, at *8 n.19 (discussing Taiwanese causes of
action and identifying New Jersey causes of action as
“conversion,” “unjust enrichment, “constructive trust,”
“accounting” and “civil conspiracy”). In dismissing that
case under FNC, the court there found that “the New

52a
Jersey claims are seemingly contingent on . . .
Taiwanese law.” Id. at *8. “[T]o succeed on any of the
New Jersey claims,” that court held, “Plaintiffs first
need to prove an underlying violation of Taiwanese
law.” Id. at *8 n.19. So, too, do the D.C. claims at issue
here seem to rise or fall with Plaintiffs’ allegations
under Taiwan’s Civil Code. The Court therefore
concurs with the New Jersey court’s determination
that “[t]he dispute here rests entirely on the application of Taiwanese law.” Id. at *12.
There is no doubt that this Court is “empowered to
resolve questions of foreign law,” Mot. at 32, and that
the need to do so does not compel dismissal under
FNC. See Cruise Connections Charter, 764 F. Supp. 2d
at 163–64 (need to apply foreign law “alone is not
sufficient to warrant dismissal”). Although “showing
that another jurisdiction’s law will apply is not alone
sufficient to refuse retention of a case if the court will
not have any difficulty applying [such] law,” this is not
such a case. See Lans, 786 F. Supp. 2d at 300. This
Court readily acknowledges that it will have some
degree of difficulty in interpreting the numerous
provisions of Taiwan’s Civil Code at issue here. See
Moletech, 2009 WL 3151147, at *6 (finding that
application of Taiwan’s law “would be an arduous task
as the Court is unfamiliar with Taiwanese law, and
this factor weighs heavily in favor of dismissal of this
action”); In re Air Crash, 331 F. Supp. 2d at 1211
(“Because Taiwanese law is likely to apply to these
actions, and because the court is unfamiliar with
Taiwanese law, this public factor . . . weighs in favor
of dismissal on forum non conveniens grounds.”). As
the record makes clear, this is no straightforward task
here. See Su Decl. I, ¶¶ 78 (noting that no Taiwanese
court has previously addressed allocating spousal
share among multiple wives); ¶¶ 149-51 (discussing

53a
meaning of Settlement Agreement); Chen Decl. II,
¶ 117 (noting that Taiwanese courts have never considered application of relevant Civil Code provisions
“to the situation of multiple spouses”). Parsing and
applying the relevant Civil Code provisions will
require this Court to gain a significant level of
expertise regarding foreign family and inheritance
law, and to resolve a number of questions of first
impression arising under Taiwanese law. In light of
such challenges, the Court concludes that this factor
weighs strongly in favor of dismissal.
iii. Burden on D.C. Citizens
In addition to taxing the foreign expertise of this
Court, there is also the concern that a trial in this case
would “unfairly” burden citizens of the District with
jury duty. When assessing motions to dismiss under
FNC, courts seek to “avoid[] the imposition of jury duty
on people of a community which has no relation to the
litigation.” Wye Oak Tech., Inc. v. Republic of Iraq, 941
F. Supp. 2d 53, 58 (D.D.C. 2013) (internal quotation
marks and citation omitted). While this suit has some
relation to the District – Defendants are D.C.-based
entities and Plaintiffs bring claims under D.C. law –
the gravamen of the case, as discussed above, involves
Taiwan’s Civil Code. Fairness to a future D.C. jury
therefore counsels in favor of dismissal. See BCCI
Holdings (Luxembourg), Societe Anonyme v. Mahfouz,
828 F. Supp. 92, 99–100 (D.D.C. 1993) (finding that
“the District of Columbia’s relatively minor interest in
the outcome of the dispute does not justify submitting
its citizens to the rigors of sitting as jurors”); In re Air
Crash, 331 F. Supp. 2d at 1206 (stating that “it is clear
[], given Taiwan’s significant connection to the actions,
and California’s minimal one, requiring California

54a
citizens to serve as jurors in these cases would be an
unfair burden”).
IV. Conclusion
Bearing in mind that flexibility is the “watchword”
and convenience the “central focus” of the forum non
conveniens inquiry, the Court concludes that the
private interests tip slightly in favor of dismissal and
the public interests come out strongly in support
of that result. Because it also finds that Taiwan is
an available and adequate alternative forum, it will
ultimately grant Defendants’ Motion to Dismiss under
forum non conveniens. The Court will, however,
condition such dismissal upon Defendants’ continued
submission to Taiwan’s jurisdiction and waiver of
their statute-of-limitations defenses. Recognizing,
moreover, that Plaintiffs may have remaining concerns regarding their ability to re-file in Taiwan, the
Court will provide them the opportunity to request
additional conditions subsequent to the issuance of
this Opinion. Defendants will in turn have the chance
to respond to any such requests, and the Court will
determine if any further constraints to dismissal are
warranted. A contemporaneous Order so stating shall
issue this day.
/s/ James E. Boasberg
JAMES E. BOASBERG
United States District Judge
Date: February 12, 2018

55a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
————
Civil Action No. 10-1743 (JEB)
————
CHIN-TEN HSU, et al., AS EXECUTORS OF THE WILL OF
YUEH-LAN WANG,
v.

Plaintiffs,

NEW MIGHTY U.S. TRUST, et al.,
Defendants.
————
MEMORANDUM OPINION
On February 2, 2018, this Court issued a Memorandum Opinion addressing whether Plaintiffs’ case
should be dismissed under the doctrine of forum non
conveniens. Finding that Taiwan was an adequate
alternative forum and that private and public factors
counseled in favor of proceeding in that country,
the Court concluded that dismissal was warranted. At
that time, however, it did not grant Defendants’
Motion to Dismiss. The Court instead retained jurisdiction in order to offer Plaintiffs the opportunity to
propose particular conditions for dismissal. They have
now done so and Defendants have responded, opposing
certain proposals and accepting others as appropriate
terms. The Court, after considering the positions of
both sides, will dismiss the case pursuant to the
conditions set out below.

56a
I. Background
Under the doctrine of forum non conveniens, a
district court considers “the convenience to the parties
and the practical difficulties that can attend the
adjudication of a dispute in a certain locality.” MBI
Grp., Inc. v. Credit Foncier du Cameroun, 558 F. Supp.
2d 21, 26-27 (D.D.C. 2008) (quoting Sinochem Int’l Co.
Ltd. v. Malaysia Int’l Shipping Corp., 549 U.S. 422,
429 (2007)). If the court determines that (1) an adequate
alternative forum exists and (2) public and/or private
factors favor dismissal, it has the discretion to dismiss
the case. In doing so, the court may also impose
conditions upon its dismissal. See El–Fadl v. Cent.
Bank of Jordan, 75 F.3d 668, 677 (D.C. Cir. 1996),
abrogated on other grounds by Samantar v. Yousuf,
560 U.S. 305 (2010) (stating that “the district court
may dismiss for forum non conveniens . . . conditioned
on the defendants’ submitting to jurisdiction in Jordan
and on the Jordanian courts’ acceptance of the case”).
The latitude in determining such conditions has not
been explicitly addressed by this Circuit, but such
terms are generally regarded as part and parcel of the
district court’s broad discretion under FNC. See MBI
Grp., 558 F. Supp. 2d at 31–32 (noting that “[t]he D.C.
Circuit has expressly authorized” conditional dismissals under FNC) (citing El–Fadl, 75 F.3d at 679);
Blanco v. Banco Indus. de Venezuela, S.A., 997 F.2d
974, 984 (2d Cir. 1993) (“[F]orum non conveniens
dismissals are often appropriately conditioned to
protect the party opposing dismissal.”); In re Banco
Santander Sec.-Optimal Litig., 732 F. Supp. 2d 1305,
1330 (S.D. Fla. 2010), aff’d sub nom. Inversiones
Mar Octava Limitada v. Banco Santander S.A., 439
F. App’x 840 (11th Cir. 2011) (district court may
impose “conditions designed to prevent prejudice to

57a
the plaintiff if the suit is reinstated in the foreign
forum”).
In its prior Opinion, the Court addressed Defendants’
Motion to Dismiss under FNC. The full facts of this
case are set out in the earlier Opinions, see Yueh–Lan
Wang ex rel. Wong v. New Mighty U.S. Tr. (Wang I),
841 F. Supp. 2d 198 (D.D.C. 2012), rev’d sub nom.
Wang by & through Wong v. New Mighty U.S. Tr., 843
F.3d 487 (D.C. Cir. 2016); Yueh–Lan Wang by &
through Winston Wen–Young Wong v. New Mighty
U.S. Tr. (Wang II), 322 F.R.D. 11 (D.D.C. 2017); ChinTen Hsu v. New Mighty U.S. Tr., 2018 WL 834230
(D.D.C. Feb. 12, 2018), and the Court will not repeat
them in any depth here. Briefly, however, this case is
at bottom a dispute between the putative heirs of the
deceased Taiwanese magnate Y.C. Wang. See Hsu,
2018 WL 834230, at *1-2. Defendants, a D.C.-based
trust and its affiliates, hold a portion of Y.C.’s assets.
Id. Plaintiffs, the executors of the will of Y.C.’s wife
Yueh-Lan Wang, asserted that these funds were
improperly disbursed and resulted in a “shorting” of
Yueh-Lan’s marital share of the estate. Id. at *2.
Contending that resolving this contest involved complex questions of Taiwanese family and marital law –
particularly in light of the multiple women claiming to
be Y.C.’s wives – Defendants moved to have the case
dismissed in favor of litigation in Taiwan. Id. at *3.
Plaintiffs opposed dismissal under FNC, contending
that Taiwan was not an adequate alternative forum
and that the public and private interests favored
retaining the suit here.
After a careful analysis, the Court determined that
dismissal was the appropriate outcome. As the Court
concluded, Taiwan was an available and adequate
alternative forum, the private factors tipped slightly

58a
in favor of dismissal, and the public factors “tip[ped]
sharply in favor” of such an outcome. Id. at *12. In
particular, the Court found that there were few local
but “strong Taiwanese” interests at stake, and that
resolving the case would “require this Court to gain
a significant level of expertise regarding foreign family
and inheritance law, and to resolve a number of
questions of first impression arising under Taiwanese
law.” Id. at *12-13. In light of such concerns, the
Court exercised its broad discretion under FNC and
determined that dismissal was the most practical and
convenient course. Id. at *14.
It did not, however, actually dismiss the case at that
time. Instead, the Court determined that, in addition
to conditioning “[its] dismissal upon Defendants’
continued submission to Taiwan’s jurisdiction and
waiver of their statute-of-limitations defenses,” it
would “provide [Plaintiffs] with the opportunity to
request additional conditions” that would address
their “remaining concerns regarding their ability to
re-file in Taiwan.” Id. The Executors took the Court
up on that offer and, in late February, filed a
Memorandum proposing nine conditions for dismissal.
See ECF 53-1 (Pl. Proposed Conditions). Defendants
responded, accepting certain of Plaintiffs’ proposals
but rejecting and modifying others. See ECF 54 (Def.
Resp.). The Executors in turn replied with a somewhat
edited version of their original terms. See ECF 55 (Pl.
Reply); ECF 55-1 (Pl. Revised Proposed Order). The
Court must now determine which, if any, of these
proposed conditions it will apply to its Order of
dismissal.

59a
II. Analysis
A. Consent to Jurisdiction
The first condition at issue is the specific Taiwanese
court in which Defendants will submit to service of
process and personal jurisdiction, should this case be
re-filed overseas. In its prior Opinion, the Court held
that “Taiwan is an available and adequate forum for
this suit.” Hsu, 2018 WL 834230, at *8. That determination rested in part upon Defendants’ representation
that, should Plaintiffs choose to re-file in that country,
they would submit to service of process and personal
jurisdiction before a Taiwanese court. Id. at *5-6. Now,
although acquiescing to that condition generally,
Defendants ask the Court to limit such consent to
service of process and jurisdiction solely before a court
in Taipei, Taiwan. Plaintiffs respond that such geographic specificity is unwarranted and unnecessary.
On this condition, the Court agrees with the
Executors. Although Defendants note that the waivers
they submitted refer specifically to Taipei, see ECF
Nos. 47-9 (Decl. of Susan Wang), 47-10 (Decl. of
William Wong), 47-11 (Decl. of Donald Kozusko), their
filings during litigation were not so limited. Rather,
Defendants repeatedly discussed their “concession
to service and jurisdiction in Taiwan,” ECF No. 47-1
(Motion to Dismiss) at 25, their “declarations agreeing
to submit to the jurisdiction of an appropriate court in
Taiwan,” and their position that “Taiwan courts will
enforce” such agreements. See ECF No. 50 (Def. Reply)
at 14-15. This Court similarly referred to Taiwan,
rather than Taipei, when assessing the impact of
Defendants’ waivers on the availability of Taiwanese
courts. See Wang II, 322 F.R.D. at 25 (finding that
Defendants “effectively concede that they are not
amenable to process in Taiwan, but agree in affidavits

60a
to submit themselves to its jurisdiction” and that “on
[the] Taiwanese personal-jurisdiction issue, such a
confession is sufficient to overcome any problems”);
Hsu, 2018 WL 834230, at *9 (Defendants “have now
consented to . . . foreign jurisdiction” in Taiwan). In
light of Defendants’ representations throughout this
case and the conclusions of the prior Opinions, the
Court is satisfied that the equitable outcome is to
condition dismissal upon Defendants’ consent to service of process and personal jurisdiction in Taiwan
generally, rather than Taipei specifically.
The Court also notes that Defendants are unable to
provide any legal precedent for conditioning dismissal
upon consent to jurisdiction in a foreign city rather
than in a nation. Cf. MBI Grp., 558 F. Supp. 2d at
31–32 (conditioning dismissal upon defendants’ submitting to jurisdiction in Cameroon); El–Fadl, 75 F.3d at
679 (conditioning dismissal on defendants’ submitting
to jurisdiction in Jordan). They have, moreover,
offered no evidence that Taipei is the only proper
venue for Plaintiffs’ claims in Taiwan nor given any
other rationale for their desire to restrict jurisdiction
to a given city. Indeed, such geographic specificity is
not required when determining whether a foreign
system is available and adequate under FNC; the doctrine instead allows courts to avoid making in-depth
inquiries into foreign law. See Hsu, 2018 WL 834230,
at *12 (public-interest factors include “the avoidance
of unnecessary problems . . . in the application of
foreign law”); In re Air Crash Off Long Island, N.Y., on
July 17, 1996, 65 F. Supp. 2d 207, 215 (S.D.N.Y. 1999)
(noting that “inquiry into foreign jurisdictional law . . .
[is] easily obviated by use of the typical conditional
dismissal device”). The Court therefore declines to
delve into the minutiae of Taiwanese venue provisions
or potential distinctions among its various courts. It

61a
instead will condition its dismissal upon Defendants’
consent to service of process and personal jurisdiction
in Taiwan writ large.
B. Waiver of Defenses
The second condition proposed by Plaintiffs addresses
Defendants’ waiver of statute-of-limitations and other
similar defenses. The Executors request that the
Court condition its dismissal upon Defendants’ waiving “any defenses based on limitations, statute of
limitations, statutes of repose and/or laches.” Rev.
Proposed Order at 1. They propose that this waiver be
applied to “any of the claims asserted in the Second
Amended Complaint or any additional claims that
Plaintiffs assert against Defendants in the Taiwan
Action that arise out of the conduct, transactions or
occurrences set out – or attempted to be set out – in
the Second Amended Complaint as that clause within
Rule 15(c) of the Federal Rules of Civil Procedure”
has been interpreted by U.S. courts. Id. Although
Defendants accept the types of defenses listed in this
condition – i.e., those based on limitations, repose,
and/or laches – they object to the breadth of the
claims to which the waiver would apply. According to
Defendants, the waiver of such defenses should be
applied only to “the claims asserted in the Second
Amended Complaint.” ECF 54-1 (Def. Proposed
Order).
On this issue, the Court finds that a middle ground
between the parties’ positions is the appropriate condition. It agrees with the Executors that Defendants’
waiver should extend beyond the specific claims explicitly pleaded in the Second Amended Complaint, as
Taiwanese law may require Plaintiffs to bring slightly
different counts in order to vindicate the same grievances alleged before this Court. The language proposed

62a
by Plaintiffs is, however, overly broad – particularly
the phrase regarding those claims “attempted to be set
out” in the Second Amended Complaint. The Court
will therefore condition its dismissal upon Defendants’
waiver of the listed statute-of-limitations and other
temporal defenses with respect to those claims
asserted in the Second Amended Complaint or substantively congruent claims as pled in accordance with
Taiwanese law.
C. Additional Parties and Power of Attorney
The Executors and Defendants agree as to the
former’s third and fourth proposed conditions. The
third would preclude Defendants from arguing that
the case, if re-filed in Taiwan, should be dismissed on
the ground that additional necessary or indispensable
parties could not be joined to the action. See Proposed
Conditions at 2. The fourth states that Defendants will
not argue that the case should be dismissed based
upon the action in this Court having been commenced
by Winston Wen-Young Wong on Yueh-Lan Wang’s
behalf pursuant to a power of attorney. Id. These
conditions are both reasonable and, given the parties’
consensus, the Court will include them in its Order of
dismissal.
D. Discovery
As to the Plaintiffs’ fifth proposed condition, the
parties once more diverge. The Executors assert that
this Court should condition its dismissal upon the
parties being subject to “pre-trial discovery pursuant
to and in accordance with the Federal Rules of Civil
Procedure” and upon Defendants’ making “available
. . . all relevant witnesses and documents to the extent”
that such production would be available under the
Federal Rules. See Rev. Proposed Order at 2. Defend-

63a
ants respond that this proposal is “wholly unrelated to
Plaintiffs’ ability to re-file the action in Taiwan,” and
that their apparent concerns regarding the availability of discovery were already evaluated by this
Court in its prior Opinion. See Def. Resp. at 8.
The Court agrees. In assessing the viability of
Taiwan as an alternate forum, the previous Opinion
examined the availability of discovery and the production of witnesses and relevant materials. Noting that
“a foreign forum’s restrictive discovery or procedural
rules do not render that forum inadequate,” the Court
determined that the discovery devices available if this
case were re-filed in Taiwan, including 28 U.S.C.
§ 1782, were sufficient so as to render the country a
“viable alternative forum.” Hsu, 2018 WL 834230, at
*7 (internal quotation marks omitted). The Court
similarly rejected Plaintiffs’ argument that they would
be impermissibly hindered in procuring relevant proof
and witnesses if they chose to litigate in Taiwan. Id.
at *11-12. In light of these findings, the Court sees no
need to re-visit the issues of discovery and evidentiary
access. It is, moreover, reluctant to reach into the domain
of Taiwanese courts in order to impose domestic rules
of civil procedure on such foreign proceedings. The
Court will subsequently not condition its dismissal
upon the use of any particular discovery mechanisms
or the consent of Defendants to the production of
materials or witnesses.
E. Non-Parties
The Executors next propose that “any non-party to
this action that maintains a governing body” made up
of the same persons as those who comprise Defendant
New Mighty U.S. Trust’s “Trust Managers” shall
“waive any jurisdictional defenses to the giving
of evidence in the Taiwan Action,” “consent to the

64a
jurisdiction of the Taiwan court,” “submit and be
subject to pre-trial discovery” in accordance with the
F.R.C.P., and “appear for the trial of the Taiwan
Action, if called to provide evidence.” Rev. Proposed
Order at 2-3. Defendants oppose this condition,
contending that it is again “unrelated to Plaintiffs’
ability to re-file this action in Taiwan,” and that this
Court “has no jurisdiction over these largely unidentified non-parties” such that it could order compliance
with the proposed condition. See Def. Resp. at 8-9. The
Court, once more, sides with Defendants. The prior
Opinion quite clearly gave Plaintiffs “the opportunity
to request that additional reasonable conditions be
imposed on dismissal” to address “concerns remain[ing]
regarding [their] ability to re-file in Taiwan.” Hsu,
2018 WL 834230, at *6. This was not, contrary to
Plaintiffs’ apparent interpretation, a carte blanche
invitation to propose any and all conditions that would
benefit the Executors if they proceed there. The
inquiry under FNC – and the analysis in the Court’s
prior Opinion – is focused on the availability and
adequacy of an alternate forum, not the nuances of
each party’s respective advantages or disadvantages if
the suit is brought abroad. While Plaintiffs may
certainly wish to compel nonparties to testify in
Taiwan, such a requirement is not a reasonable
condition for dismissal in this case.
F. Enforcement of Judgment
Plaintiffs’ seventh condition would require Defendants
to “satisfy any judgment rendered against them by the
Taiwan Court in the Taiwan Action, without the need
for Plaintiffs to seek to domesticate or enforce the
judgment.” Rev. Proposed Conditions at 3. Defendants
again respond that this requirement is not an appropriate condition for dismissal. They contend that the

65a
issue of enforceability was already addressed in the
Court’s prior Opinion and that it is, once more,
untethered from the Executors’ “ability to re-file this
action in Taiwan.” Def. Resp. at 10.
On this issue, Defendants again have the better
argument. The Court already concluded that “enforceability of a foreign judgment is not a necessary
condition for FNC dismissal.” Hsu, 2018 WL 834230,
at *8. Beyond not being a requirement for dismissal, it
is also one of the only terms that has been held to be
improper. In In re Union Carbide, 809 F.2d 195 (2d
Cir. 1987), the Second Circuit held that the district
court had erred when it dismissed a case under FNC
conditioned upon the defendant’s “consent[ing] to
the enforcement of a final [foreign] judgment.” Id. at
205. Such a condition was improper, the Circuit held,
because “the district court’s jurisdiction is limited to
proceedings before it in this country,” and “[o]nce it
dismisses those proceedings on grounds of forum non
conveniens[,] it ceases to have any further jurisdiction
over the matter unless and until a proceeding . . . [is]
brought here to enforce a” foreign judgment. Id. at 205;
see Banco De Seguros Del Estado v. J.P. Morgan Chase
& Co., 500 F. Supp. 2d 251, 264 (S.D.N.Y. 2007)
(rejecting condition that defendants “consent to enforcement of a judgment against them” under Union
Carbide but imposing conditions that defendants submit
to jurisdiction and service of process in Uruguay); but
see Feenerty v. Swiftdrill, Inc., 706 F. Supp. 519, 524
(E.D. Tex. 1989) (conditioning FNC dismissal upon
defendants’ agreement “to satisfy any final judgment
rendered by a court of competent jurisdiction in the
United Kingdom”). Although such precedent is of
course not binding on this Court, its reasoning that
district courts should avoid “retain[ing] some sort of
supervisory jurisdiction” over cases dismissed under

66a
FNC is persuasive in light of the intent behind the
doctrine – namely, that the case is better brought in
toto in a different jurisdiction. In re Union Carbide,
809 F.2d at 205. The Court therefore will not condition
its dismissal upon any prospective enforcement agreement between the parties.
G. Re-Opening
The next condition proposed by the Executors
addresses the circumstances under which this case
could be re-filed in the District. Plaintiffs request that
if they “determine, in good faith, that any of [the
imposed conditions] have not been met or have
been violated, [they] may move before this Court to
immediately re-open and re-instate this action.” Rev.
Proposed Order at 3. Defendants rejoin that “there
is simply no basis for including such a provision in the
dismissal order,” as it does not address Plaintiffs’
ability to re-file in Taiwan, and it is, moreover, “highly
suggestive” of the inference that the Executors aim to
“bring the action back to this Court.” Def. Resp. at 10.
Although the Court notes that other cases dismissing
under FNC have conditioned dismissal upon a foreign
court’s actual acceptance of the case, see Delgado v.
Shell Oil Co., 890 F. Supp. 1324, 1356–57 (S.D. Tex.
1995), aff’d, 231 F.3d 165 (5th Cir. 2000) (conditioning
dismissal “upon acceptance of jurisdiction by the foreign court[]”), it finds that Plaintiffs’ proposed language
on this issue is overly broad. Indeed, it fears that
relying upon the Executors’ “good faith” determination
may result in this case boomeranging right back into
the District of Columbia. The Court will therefore not
condition its dismissal upon a given standard for reopening or re-instating this case.

67a
H. Expiration of Order
Finally, Plaintiffs propose that the conditions set
forth in the Court’s forthcoming dismissal Order
expire 90 days after either “the issuance of a final
judgment on any appeal and any petition taken in
this action” or “the expiration of the applicable time
period(s) within which to file any such appeal or
petition.” Rev. Proposed Order at 4. Defendants would
prefer that the Court instead give the Executors a 45day window in which to re-file the action in Taiwan.
See Def. Resp. at 11. The Court on this issue will adopt
Plaintiffs’ proposed condition, as it is a reasonable
request in light of their right to appeal.
III. Conclusion
For the reasons set forth above, the Court will
condition its dismissal upon a limited set of reasonable
terms. A contemporaneous Order dismissing this case
and setting out such conditions will issue this day.
/s/ James E. Boasberg
JAMES E. BOASBERG
United States District Judge
Date: April 3, 2018

